Report No. SPO-2011-004                   March 17, 2011




               Special Plans and Operations



      Assessment of DOD Wounded Warrior Matters -
                    Fort Sam Houston
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                                   March 1 7 ,2011


MEMORANDUM FOR DISTRIBUTION


SUBJECT: Assessment of DOD Wowlded WatTior Matters - Fort Sam Houston
            (Report No. SPO- 2011-004)


We are providing this report for review and comment. The report discusses the U.S. Army's
Warrior Care and Transition program located at FOlt Sam Houston,Texas. It is thefirst in a
series of reports that will discuss our assessment results concerning the care,management,and
transition of recovering Service members at WatTior units.


We considered comments from the Commanding General,Brooke Army Medical Center when
preparing the final report. Some of these comments were partially responsive; therefore, we
request additional comments on Recommendations B l .c.,B 2 . c.,C1.c.(l)-(2),and C l .d(l)-(6) by
April 29,2011.


DoD Directive 7650.3 requires that all recommendations be resolved promptly. If possible,send
a .pdffile containing your comments to the point of contact listed below. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the /Signed/ symbol in place of the actual signature. If you a.ITange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).


We appreciate the courtesies extended to the staff during the conduct of this assessment. Please
direct questions to                      at (703) 604-       (DSN 6 6 4-     ,
             @dodig.mil.




                                              Dep   y Inspector General
                                              Spe ial Plans and Operations
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
  DEPUTY UNDER SECRETARY OF DEFENSE FOR WOUNDED WARRIOR CARE
    AND TRANSITION POLICY

  ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

  ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS

DIRECTOR, JOINT STAFF
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. EUROPEAN COMMAND
COMMANDANT OF THE MARINE CORPS
CHIEF, NATIONAL GUARD BUREAU
ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS
DEPUTY CHIEF OF STAFF, G–1, U.S. ARMY
THE SURGEON GENERAL/COMMANDER, U.S. ARMY MEDICAL COMMAND
  COMMANDER, BROOKE ARMY MEDICAL CENTER
  COMMANDER, WARRIOR TRANSITION COMMAND
SURGEON GENERAL OF THE NAVY AND CHIEF, BUREAU OF MEDICINE AND
  SURGERY
SURGEON GENERAL OF THE AIR FORCE
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
INSPECTOR GENERAL, OFFICE OF THE SECRETARY OF VETERANS AFFAIRS
GOVERNMENT ACCOUNTABILITY OFFICE

SENATE COMMITTEE ON APPROPRIATIONS
  SENATE SUBCOMMITTEE ON DEFENSE, COMMITTEE ON APPROPRIATIONS
SENATE COMMITTEE ON ARMED SERVICES
SENATE COMMITTEE ON FOREIGN RELATIONS
SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
HOUSE COMMITTEE ON APPROPRIATIONS
  HOUSE SUBCOMMITTEE ON DEFENSE, COMMITTEE ON APPROPRIATIONS
HOUSE COMMITTEE ON ARMED SERVICES
HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
  HOUSE SUBCOMMITTEE ON NATIONAL SECURITY AND FOREIGN AFFAIRS
Report No. SPO-2011-004 (Project No. D2010-D00SPO-0209.000)            	                 March 17, 2011




                Results in Brief: Assessment of DOD
                Wounded Warrior Matters –
                Fort Sam Houston
What We Did                                                  •	 Develop an operational definition of a
                                                                successful transition end state for
We determined whether the programs for the
                                                                Warriors in Transition
care, management, and transition of Warriors in
                                                             •	 Ensure that Warriors meet the eligibility
Transition (hereafter, “Warriors”) at the Brooke
                                                                criteria for entry into the WTB
Army Medical Center (BAMC) Warrior
Transition Battalion (WTB), located at Fort Sam              •	 Develop procedures to ensure that
Houston, Texas, were managed effectively and                    Warrior Comprehensive Transition
efficiently. Specifically, we evaluated the                     Plans are beneficial and protected
policies and processes in place to assist Warriors           •	 Ensure that unit organization supports
with their return to duty status or transition to               Warrior healing and transition
civilian life, and the DOD programs for                      •	 Develop a more effective method for
Warriors affected with Traumatic Brain Injury                   determining patient case loads for
and Post Traumatic Stress Disorder.                             primary care managers, nurse case
                                                                managers, and squad leaders
What We Found                                                •	 Assess WTB unit order and discipline
We interviewed a myriad of BAMC staff, WTB                   •	 Develop comprehensive training
cadre, and 131 U.S. Army Warriors. We                           programs for nurse case managers,
identified several initiatives implemented at the               pharmacy staff, and squad leaders
BAMC WTB that we believed to be noteworthy
practices for supporting the comprehensive care,              “…let us strive on to finish the

healing, and transition of Warriors. Further, we            work we are in…to care for him who 

observed that the BAMC and WTB management                      shall have borne the battle.”

and staff were fully dedicated to providing the                      Abraham Lincoln

best available care and services for helping
Warriors heal and transition.
                                                         Management Comments
We also identified a number of significant
challenges that we recommend the BAMC and
                                                         and Our Response
WTB management address, which if resolved,               The Commanding General, Brooke Army
will increase program effectiveness.                     Medical Center, also responding on behalf of the
                                                         Commander, Warrior Transition Battalion,
Finally, we recognized that it was important to          generally concurred with all of the
give a voice to the Warriors themselves. We              recommendations. We commend the
suggest that the BAMC and WTB management                 Commanding General and his staff for
and staff consider Warrior comments, as                  proactively implementing corrective actions for
discussed in this report, so they are cognizant of       many of the recommendations, and agreeing to
the Warriors’ views and concerns and can take            take additional actions within the next several
appropriate action.                                      months. However, for a few of the
                                                         recommendations, we request that the
What We Recommend                                        Commanding General provide additional
We recommend that the BAMC WTB                           comments to the final report by April 29, 2011.
management:                                              Please see the recommendations table on the
   • Ensure timely access to specialty care              back of this page.



                                                     i
Report No. SPO-2011-004 (Project No. D2010-D00SPO-0209.000)                  March 17, 2011



Recommendations Table
 Management                       Recommendations             No Additional Comments
                                  Requiring Comment           Required
 Commanding General, Brooke       B1.c.                       B1.a.(1), B1.a.(2)
 Army Medical Center              B2.c.                       B1.b.(1), B1.b.(2)
                                                              B2.a.
                                                              B2.b.
                                                              B2.d.(1), B2.d.(2), B2.d.(3),
                                                              B2.d.(4)
                                                              B2.e.
                                                              B2.f.(1), B2.f.(2), B2.f.(3)
 Commander, Warrior Transition    C1.c.(1)-(2)                C1.a.(1), C1.a.(2), C1.a.(3)
 Battalion                        C1.d.(1)-(6)                C1.b.
                                                              C1.e.
                                                              C2.a.
                                                              C2.b.

Please provide comments by April 29, 2011.




                                             ii
Table of Contents

RESULTS IN BRIEF                                                              I

INTRODUCTION                                                                  1

 Objectives                                                                   1

 Background                                                                   2

PART I – NOTEWORTHY PRACTICES                                                 9

 Observation A. Noteworthy Practices – Brooke Army Medical Center Warrior

 Transition Battalion                                                        11

PART II – CHALLENGES                                                         17

 Observation B. Challenges – Brooke Army Medical Center                      19

 Observation C. Challenges – Warrior Transition Battalion                    34

PART III – WARRIORS SPEAK: COMMENTS FROM WARRIORS IN 

TRANSITION                                             47

 Observation D. Warriors Speak                                               49

APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS                                 57

APPENDIX B. SUMMARY OF PRIOR COVERAGE                                        60

APPENDIX C. REPORTING OTHER ISSUES                                           62

APPENDIX D. ARMY GUIDANCE FOR WARRIOR TRANSITION 

UNITS                                                                        63

APPENDIX E. MANAGEMENT COMMENTS                                              65

This Page Intentionally Left Blank
Introduction
Objectives
The broad objective of this ongoing assessment is to determine whether the DOD programs for
the care, management, and transition of recovering Service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom were managed
effectively and efficiently. 1

Specific Objectives
Our specific objectives were to evaluate the missions, the policies, and processes of:
    •		 Military units, beginning with the Army and Marine Corps, established to support the
        recovery of Service members and their transition to duty status (Active or Reserve
        Components) or to civilian life; and
    •		 DOD programs for Service members affected with Traumatic Brain Injury (TBI) and Post
        Traumatic Stress Disorder (PTSD).

Assessment Approach
We planned to perform this assessment at multiple Army and Marine Corps locations and report
on each location separately. To ensure that our data would be unbiased, not unduly reflecting the
views of either the supporters or detractors of the program, we used a two-pronged approach to
select our respondents. First, we used a simple random sample approach to determine the
number of Service members we should interview. We performed interviews primarily with
Army wounded, ill, and injured personnel, to include 74 individual interviews with Soldiers and
57 additional Soldiers in 9 group interviews.

Second, we interviewed all available members of the key professional groups responsible for
their care. Specifically, we performed meetings and interviews during our 2-week site visit,
ranging from general officers, unit commanders, staff officers, and cadre, to civilian staff and
contractors. A listing of the meetings and interviews we performed at Brooke Army Medical
Center (BAMC) and its subordinate organizations, the Warrior Transition Battalion (WTB) and
the Warrior Transition Services (WTS), is shown in Appendix A, along with the scope,
methodology, and acronyms of this assessment. The prior coverage of this subject area is
discussed in Appendix B.

The observations and corresponding recommendations in this report focus on what we learned at
Fort Sam Houston, but we believe that some of our findings may have implications for other
facilities that will likely be called to the attention of higher headquarters responsible for these
programs. Additional reports and/or assessments may be subsequently performed on DOD
Wounded Warrior matters or other related issues as they are identified. Issues, concerns, and
challenges that we identified at Fort Sam Houston that may be addressed in future assessments


1
 Subsequent to our project announcement and at the initiation of our fieldwork, the Army’s Warrior Transition
Command informed us that approximately 10 percent of the Soldiers assigned or attached to Warrior Transition
Units were combat wounded.


                                                        1

and/or reports to organizations other than those located at the Army and Marine Corps
installations we visited are discussed in Appendix C.

Background
Army Guidance
Army guidance for the care and management of Warriors in Transition (hereafter, “Warriors”) is
contained in the “Warrior Transition Unit Consolidated Guidance (Administrative),” March 20,
2009 (hereafter, “Consolidated Guidance”). The purpose of the Consolidated Guidance is to
prescribe the policies and procedures for the administration of Soldiers assigned or attached to
Warrior Transition Units (WTUs). The Consolidated Guidance addresses items such as
eligibility criteria for a Soldier’s assignment or attachment to a WTU; staffing ratios of Army
care team members; and other administrative procedures for Soldiers being considered for
assignment or attachment to a WTU. For additional information on the Consolidated Guidance,
see Appendix D.

Warriors in Transition
The Army’s wounded, ill, and injured Service members are referred to as Warriors in Transition.
According to the Consolidated Guidance, the Warrior in Transition mission is:

                  I am a Warrior in Transition. My job is to heal as I transition back to duty or
                  become a productive, responsible citizen in society. This is not a status but a
                  mission. I will succeed in this mission because I am a Warrior.

Warrior Transition Units
In 2007, the Army created 35 WTUs at major Army installations primarily in the continental
United States (CONUS) but also at other sites outside CONUS to better support the recovery
process of the Army’s wounded, ill, and injured Service members. Army WTUs vary in size and
functionality and were established either as brigades, battalions, companies, or community-based
units. 2 As of May 2010, there were 26 WTUs located in CONUS, 1 in Hawaii, 2 in Alaska, and
3 in Germany, as well as, 8 community-based WTUs located in CONUS and 1 in Puerto Rico.

The commander of each WTU reports to the commander of the Military Treatment Facility that
is co-located with the WTU. Army WTU care teams consist of, but are not limited to, military
cadre, physicians, nurses, TBI and behavioral health specialists such as psychologists and social
workers, occupational therapists, and a myriad of outside organizations offering resources to the
Warriors.

WTUs provide this critical support to Army Active Component Soldiers who meet the eligibility
criteria, which generally require that: (1) a Soldier has a temporary profile, 3 or is anticipated to

2
  Community-Based WTUs are primarily for Reserve Component Soldiers. According to the Consolidated
Guidance, the Community-Based WTU is a program that allows Warriors to live at home and perform duty at a
location near home while receiving medical care from the Tri-Service Medical Care network, the Department of
Veterans Affairs, or Military Treatment Facility providers in or near the Soldier’s community.
3
  According to Army Regulation 40-501, “Standards of Medical Fitness,” August 23, 2010, the basic purpose of the
physical profile serial is to provide an index to overall functional capacity. The physical profile serial system is


                                                          2


receive a profile, for more than 6 months with duty limitations that preclude the Soldier from
training for or contributing to unit mission accomplishment, and (2) the acuity of the wound,
illness, or injury requires clinical case management to ensure appropriate, timely, and effective
utilization and access to healthcare services to support healing and rehabilitation. 4 The
Consolidated Guidance also states that Soldiers with medical conditions who do not require case
management should remain in their units and utilize the standard healthcare system and access to
care standards.

Triad of Care
At the nucleus of the WTU is the “Triad of Care,” which is comprised of a squad leader, a nurse
case manager, and a primary care manager (a physician). The Triad of Care staff was established
to envelope the Warriors and their families in comprehensive care and support, which is focused
on the primary mission with respect to each Warrior – to heal. More specifically, the Triad of
Care is to work together to collect Soldier data and information and develop a plan of care
specific to each Soldier. The plan of care is to address medical treatment, administrative
requirements, support needs, and disposition. All are to work together to ensure advocacy for the
Warriors, continuity of care, and a seamless transition into the force or return to a productive
civilian life.

The ratios of Triad of Care staff to Warriors were established at: squad leader (1:10), nurse case
manager (1:20), and primary care manager (1:200). 5 The Triad of Care structure is shown in
Figure 1.


                                             Figure 1. Triad of Care




The following is a brief description of each Triad of Care member’s roles and responsibilities.




based primarily upon the function of body systems and their relation to military duties. The functions of the various
organs, systems, and integral parts of the body are considered. There are six factors that are evaluated: physical
capacity or stamina, upper extremities, lower extremities, hearing and ears, eyes, and psychiatric. Four numerical
designations are assigned for evaluating the individual’s functional capacity in each of the six factors. Profiles can
be either permanent or temporary.
4
  Army National Guard and Army Reserve Soldiers may be eligible for assignment or attachment to a WTU but fall
under a different and more complex process than Active Component Soldiers. The processes are shown in the
Consolidated Guidance.
5
  These and other staffing ratios are shown in the Consolidated Guidance.


                                                          3

    •	 Squad Leader – traditionally a non-commissioned officer in the rank of Sergeant (E-5)
       or Staff Sergeant (E-6) - the front line leadership for all of the Warriors. Their duty
       description includes, but is not limited to: accounting for Warriors daily, counseling them
       and guiding them in their Comprehensive Transition Plan (CTP), 6 ensuring that they
       attend all appointments, tracking all of their administrative requirements, and building
       trust and bonding with Warriors and their families.
    •		 Nurse Case Manager – a civilian or Army nurse that provides the individualized
        attention needed to support the medical treatment, recovery, and rehabilitation phases of
        care of the Warriors. The goal of case management is to orchestrate the best care for the
        Warriors by monitoring progression of care, Transition Review Board 7
        recommendations, and Warriors’ respective goals to actively and proactively facilitate
        movement of the Warrior from one level of care to the next.
    •		 Primary Care Manager – the medical point of contact and healthcare advocate for the
        Warrior. They provide primary oversight and continuity of healthcare and are to ensure
        the level of care provided is of the highest quality. They are the gateway to all specialty
        care (such as behavioral health specialists or orthopedic surgeons) and coordinate with
        other physicians to ensure that the Warriors are getting the treatment that they need.

Fort Sam Houston
The organizational structure supporting Warriors at Fort Sam Houston was comprised of BAMC
and its subordinate organizations, the WTB and the WTS. The initial organization at Fort Sam
Houston was a battalion-sized unit that reached initial operational capability on April 24, 2007.
At the time of our site visit, the WTB commander and the WTS director reported directly to the
Commanding General, BAMC. The BAMC organizational structure that supported the Warriors
in the WTB is shown in Figure 2.




6
  The CTP is a broad look at the current status of a Warrior and the formulating of a program of action aimed to help
the Warrior move from one stage of his/her transition to the next. For additional information on the CTP, see
Observations C and D.
7
  Transition Review Boards are intended to facilitate dialogue between the Warrior and the Triad of Care, chain of
command, and other members of the Warrior’s care team, as appropriate, regarding both the Comprehensive
Transition Plan progress and future strategy for the Warrior’s transition. For additional information, see
Observation B.


                                                         4

                         Figure 2. BAMC Organizational Structure for Warriors


                                                                   BAMC


                                                          Direct Support
                                  WTS                                                   WTB


                   Chief, Case               MEB*                    HQ**      Alpha           Bravo     Charlie
                     Mgmt                  Physicians               Company   Company         Company   Company




          Alpha                   Bravo                  Charlie
      Sr. NCM***                 Sr. NCM                Sr. NCM




                                                            Direct Support
  * Medical Evaluation Board
 ** Headquarters
*** Nurse case manager

Brooke Army Medical Center
The hospital located at Fort Sam Houston, BAMC, is a modern state-of-the-art, 450-bed
healthcare facility that provides level-one trauma and graduate medical education. Among the
BAMC WTB Warriors were severely burned patients, amputee patients, TBI and PTSD patients,
and other wounded, ill, or injured.

There were also specialized BAMC campus facilities to support patients and families such as the
Center for the Intrepid (state-of-the-art physical rehabilitation facility), the Institute for Surgical
Research, the TBI Clinic, and four Fisher Houses and the Powless Guest House (both of which
are temporary housing facilities for families of recovering Service members).

The mission statement of BAMC was to effectively and efficiently promote health and provide
quality healthcare to eligible patients, while preparing future healthcare leaders to do the same
within the full spectrum of military medical operations.

Warrior Transition Battalion
The BAMC WTB staff averaged between 240-250 personnel. The staff was comprised of
military Service members, government civil service employees, and government contractors.
Under BAMC leadership, the WTB was responsible for creating the conditions and providing the
care that allowed Warriors to successfully heal and transition. The WTB consisted of a
headquarters company, comprised of the command team and primary staff, and three additional
companies, each of which had the capacity to hold approximately 200 Warriors.




                                                                       5

Between June 1, 2007, 8 and the completion of our site visit on June 25, 2010, the BAMC WTB
transitioned a total of 1,626 Warriors. Table 1 shows the status of those Warriors.

           Table 1. Status of Warriors Who Transitioned Through the BAMC WTB


                           Between June 1, 2007, and June 25, 2010


                   Returned to Duty                                                         950
                   Transitioned from the U.S. Army to Civilian Life                         659
                   Deceased                                                                  10
                   Separated by Administrative Adverse Actions                                7
                   Total Warriors in Transition                                           1,626

As of June 25, 2010, there were 548 Warriors assigned to the BAMC WTB. Of the 548
Warriors, 126 were combat wounded; 79 were treated in a contingency theatre area of
operations; and 343 were ill or injured. 9 Of the 343 ill or injured Warriors, 18 had previously
deployed to a contingency theatre area of operations.

The mission statement of the WTB was: We are dedicated to provide command and control,
primary care, case management, and comprehensive health, welfare and safety for Warriors,
staff, and their families assigned or attached to the BAMC WTB, in order to facilitate their
transition while healing as they prepare to return to the force or pursue the future as a proud
Veteran. The BAMC WTB had also established five essential tasks to achieve mission success:
    • Provide command and control
    • Provide quality primary care and case management services
    • Synchronize clinical care, disposition, and transition
    • Provide administrative support and services for Warriors, families, and staff
    • Promote readiness to return to the force or transition to a productive civilian life

Warrior Transition Services
The BAMC WTS was directed by a senior physician who used multiple military, civilian, and
Department of Veterans Affairs (DVA) resources to find solutions to complex Warrior care
issues and challenges. In addition, WTS worked closely with case management, the WTB
surgeon, BAMC providers, and the WTB chain of command to ensure that each Warrior was
progressing appropriately in their treatment plan. The WTS was comprised of a case
management staff and three Medical Evaluation Board physicians. There was 1 senior nurse
case manager and 10 nurse case managers supporting each company.

8
  June 1, 2007, is the date that the U.S. Army Warrior Transition Command was officially activated.


9
  According to an official from the U.S. Army Warrior Transition Command, the following definitions apply to


Warriors in Transition:


“Combat Wounded” - Soldiers who have been wounded by enemy actions while serving in a contingency theatre


area of operations.


“Treated in a Contingency Theatre Area of Operations” - Soldiers who became ill or injured and were treated by


medical personnel while serving within a contingency theatre area of operations.


“Ill or Injured” - Soldiers who became ill or injured and were treated by medical personnel outside of a contingency 

theatre area of operations.





                                                          6

Traumatic Brain Injury and Post Traumatic Stress Disorder
Two increasingly common diagnoses for recovering Service members are TBI and PTSD. TBI 10
is also referred to by its common term, “concussion,” which is when someone receives a direct
blow or a jolt to their head that disrupts the function of the brain. Service members may sustain
concussions or TBIs when exposed to a blast or explosion (sometimes on multiple occasions),
which may lead to serious symptoms. There are three different levels of TBI (mild, moderate,
and severe) based on the severity of damage to the brain.

PTSD 11 is an anxiety disorder or condition that develops after someone has experienced or
witnessed a life-threatening or traumatic event, which may include a combat event. PTSD
usually begins immediately after the traumatic event but it could start later, even years later. A
PTSD event likely involved actual or perceived death or serious injury and caused an intense
emotional reaction of fear, hopelessness, or horror.

The TBI Clinic, Social Work Services, and the Department of Behavioral Medicine provide
services at the BAMC WTB to Warriors and their families who are affected by TBI and/or
PTSD.




10
   The definition of TBI is from multiple sources, including “Types of Brain Injury,” Brain Injury Association of
America, October 15, 2008; and “Force Health Protection and Readiness Quick TBI and PTSD Facts,” Force Health
Protection and Readiness, October 15, 2008.
11
   The definition of PTSD is from multiple sources, including “Force Health Protection and Readiness Quick TBI
and PTSD Facts,” October 15, 2008; and Jessica Hamblen, PhD, “What is PTSD?” National Center for PTSD,
U.S. Department of Veterans Affairs, October 15, 2008.


                                                        7

This Page Intentionally Left Blank




              8

Part I – Noteworthy Practices





            9

This Page Intentionally Left Blank




               10

Observation A. Noteworthy Practices – Brooke
Army Medical Center Warrior Transition Battalion
The BAMC WTB staff had instituted four initiatives we believe to be noteworthy practices.
Those initiatives were:
     •	 Developing the High-Interest Patient (HIP) Database
     •	 Establishing weekly company-level “Triad of Care” meetings
     •	 Using the Prescription Medication Analysis and Reporting Tool (P-MART) 12 for 

        polypharmacy 13 management


     •	 Preparing guidelines for the occupational therapy process, specifically via the Warrior in
        Transition Advancement Program (WINTAP)

Initiatives as Noteworthy Practices
A discussion of each of these four initiatives follows.

High-Interest Patient Database
According to BAMC staff, the HIP Database application was created by two BAMC healthcare
providers to help with the care and risk management 14 of complex patients. It was designed as a
tool that could be used during interdisciplinary team meetings to facilitate the collection,
retrieval, flow, and exchange of information as well as to track tasks from assignment to
completion.

The HIP Database assisted care team providers to categorize patients according to their level of
risk and provided a transparent view of patient appointment and medication history. A patient’s
risk level was characterized by a color code; green (low-risk), yellow or amber (moderate-low
risk), red (moderate-risk), black (high-risk), or unspecified (no color assigned). Care providers
and case managers could create tasks necessary for the care of the patient, assign tasks to
individual providers or managers, and view suspense and completion dates of assigned tasks
along with their outcomes or comments.

The HIP Database resided on the BAMC network. Access to this database was granted only to
authorized users and required a network account and membership in a specific domain group.
The HIP Database drew patient demographic and other information from the Composite Health
Care System, which is used at all Military Treatment Facilities as part of patient electronic


12
   The P-MART database was developed by the DOD Pharmacoeconomics Center, a tri-service entity under the
Office of the Assistant Secretary of Defense for Health Affairs. The P-MART system provided prescription data
from all points of service, identified high-risk individuals, identified potential alternative medication available in
theater, and provided analysis of drug use for the purposes of refining medication supply lists.
13
   According to Mosby’s Medical Dictionary, 8th Edition, 2009, polypharmacy is the use of a number of different
drugs, possibly prescribed by different doctors and filled in different pharmacies, by a patient who may have one or
several health problems.
14
   With regard to Warriors, risk management is handled through the conduct of risk assessments of those Warriors
who are or have: prescribed polypharmacy, prescribed narcotics, mental health diagnosis, prior history of high-risk
behavior, experienced a broken relationship, suffered from chronic pain, and/or are pending punitive actions.


                                                          11


healthcare records. The BAMC staff believed that the HIP Database could be installed
throughout all WTUs, but this would require each Military Treatment Facility to create an
interface with their Composite Health Care System host.

Weekly Triad of Care Meetings
At the BAMC WTB, Triad of Care meetings were held on a weekly basis by each WTB
company to discuss and make decisions on necessary actions to ensure full synchronization of
the clinical care, disposition, and transition for each Warrior. We observed weekly Triad of Care
meetings for Alpha, Bravo, and Charlie Companies on June 17, 2010.

The Triad of Care meeting for Alpha Company, for example, was attended by the squad leaders,
platoon sergeants, nurse case managers, primary care managers, company commander, first
sergeant, occupational therapists, and social workers that were responsible for Warriors assigned
to Alpha Company. This meeting was divided into two parts: (1) detailed discussion of all high-
and moderate-risk Warriors, and (2) updates and significant changes for all Warriors not
included on the high-risk list.

High- and Moderate-Risk Warriors in Transition
The first part of the weekly Triad of Care meeting discussed the high- and moderate-risk
Warriors (those coded black or red in the HIP Database).

During the Alpha Company meeting, for example, each person coded black or red was discussed
by a care element (such as medications, specialty care, occupational therapy, etc.), along with the
necessary details to understand the Warrior’s current medical situation, why a particular risk
existed, and whether the risk indicator should be increased or decreased. The Alpha Company
Commander then made the final determination as to whether the risk level should be maintained,
raised, or reduced for each Warrior that was discussed.

Pertinent information on that Warrior’s status was updated in the HIP Database as necessary,
once discussions were concluded. We also observed that newly designated high-risk Warriors
could be added to the database at any time.

Updates for Other Warriors in Transition
The second part of the weekly Triad of Care meeting discussed the remaining Warriors within
each company. During the Alpha Company meeting, there was a member-by-member update on
activity and significant changes that had occurred for the remaining Warriors. Items discussed,
among many others, included whether a Medical Evaluation Board had been scheduled, progress
updates for certain Warriors’ CTP had been recorded, Warriors’ abilities to participate in certain
activities, and the whereabouts of Warriors if they were on leave.

Prescription Medication Analysis and Reporting Tool
The P-MART was developed to provide a comprehensive database of medication information to
healthcare providers concerning deploying Service members prior to their deployment.
However, the BAMC WTS pharmacy staff stated that, previously, the P-MART tool did not
contain a specific report that could identify Warriors at elevated risk for polypharmacy.



                                                12


Consequently, the pharmacy staff stated that they worked with the DOD Pharmacoeconomics
Center to design the WTU P-MART to produce a monthly customized report for Warriors.

This application provided the WTU healthcare provider with medication information and
identified potential at-risk patients. The tool was accessible only to healthcare providers who
were involved in the care of a WTU Service member. The WTU P-MART:
     •		 Collected prescription data on the WTU Service member from all points of service
     •	 Identified high-risk individuals
     •	 Prepared specialized medication reports focused on high-risk medications (i.e., narcotic
         use, sleep aids, etc.)
The BAMC WTS pharmacy staff stated that they used the customized report from the WTU
P-MART to conduct medication reconciliations 15 for high-risk patient management. They also
stated that they often contacted primary care managers to notify them of drug interactions or
high-risk situations, resulting in the primary care managers adjusting prescriptions as needed.
The BAMC WTS pharmacy staff believed that as a result of the success they had experienced,
the WTU P-MART had been deployed at other, larger Army WTU sites – to include Fort Drum,
Fort Carson, and Walter Reed Army Medical Center.

Warrior in Transition Advancement Program
The WINTAP was offered through the Occupational Therapy Clinic at the BAMC WTB. The
WINTAP was developed to facilitate the Warrior’s transition from a wounded Soldier to a
productive Soldier. It provided the foundation needed for the development of skills for the work
and school environments; specifically, the cognitive, behavioral, and social skills each person
needs to be successful in life.

The WINTAP approach was comprised of a series of life skills classes, which helped Warriors
identify occupational goals and avenues to reach those goals, and to instill the positive mindset to
achieve their goals. Some of the 11 classes offered included:
     •		 Goal Setting – a one-part class to help Warriors focus on their life plan and set and
         achieve immediate, short term, and long term goals.
     •		 Academic Skills – a series of three classes to educate Warriors on skills necessary for
         success in an academic environment, to include time management, strategies for
         studying, and practical testing.
     •		 Education Choices – a one-session class to inform Warriors of educational opportunities
         and motivate them to take an active role in educational programs for career and
         professional development in military or civilian life.
     •	 Do You Hear Me Now? – a three-part class to help Warriors identify anger, its triggers,
         and the various ways we respond to it.
     •	 All Stressed Out – a three-part class to help Warriors identify stress, stress triggers, and
         symptoms of stress, and learning techniques to minimize stress.


15
  Medication reconciliation is a formal process of identifying the most complete and accurate list of medications a
patient is taking and using that list to provide correct medications for the patient anywhere within the healthcare
system.


                                                         13

     •	 Real Life, Real Jobs – a one-part information session to provide Warriors one-on-one
        employment assistance and online resources to assist wounded and injured Service
        members in their transition into the civilian workforce.
     •	 Work Skills – a three-part class to educate Warriors on interviewing techniques, resume
        writing, and the successful completion of a job application. These classes also provided
        job counseling and mentorship.

Conclusion
We believe that these four initiatives have already and will continue to progressively improve
and enhance the recovery of Warriors assigned or attached to the BAMC WTB and that these
noteworthy practices may be applicable for utilization at other WTUs. Our conclusions on each
of the four initiatives follow.

High-Interest Patient Database
The HIP Database demonstrated that it was an effective tool 16 for gathering necessary and
critical information on WTB patients and for coordinating the multidisciplinary management of
complex cases concerning high-risk patients within the WTB, as well as for lower-risk patients.
It also appeared that the HIP Database proved to be very useful for clearly displaying
information on WTB patients and serving as a focal point for the WTB Triad of Care meetings.
We believe that the development of the HIP Database was an innovative technique for improving
the management of WTB Warriors.

Weekly Triad of Care Meetings
The inclusion of most, if not all, of the Army WTB care team 17 during the WTB Triad of Care
meetings and the open and free-flow of information during those meetings was informative and
beneficial to all parties responsible for the multidisciplinary management of complex and high-
risk patients within the WTB, as well as for lower-risk patients. We believe that the WTB Triad
of Care meetings appeared to ensure a safe and effectively managed environment in support of
Warrior care and transition. It also appeared that the direction and guidance provided by the
company commander and/or first sergeant, as appropriate, was beneficial in providing an
increased situational awareness of the Warrior recovery challenges for all participants.

Prescription Medication Analysis and Reporting Tool
The development and use of a customized report, 18 based on extracts of WTU P-MART
information, appeared to improve the effectiveness of medication reconciliations for the
polypharmacy management of patients at elevated risk levels. We believe that this initiative was
an innovative technique in converting extracts of WTU P-MART information into an effective
management tool.


16
   We did not assess the HIP Database itself but observed its use during Triad of Care meetings.

17
   We did not reconcile the attendees at each of the three WTB Triad of Care company-level meetings we observed

against the care team assigned to each Warrior. The Army care team was discussed in the Introduction

(Background) section of this report.

18
   We did not assess the report application itself but discussed its use during numerous meetings with BAMC

officials.



                                                       14

Warrior in Transition Advancement Program
The concept of the WINTAP classes was an innovative technique in support of the Warrior’s
rehabilitation process and could be beneficial for a Warrior’s transition to military service or to a
productive civilian life. We believe that WINTAP can assist in developing and enhancing skills
needed by Warriors, whether they return to a military unit or to pursue civilian life. The
WINTAP can therefore enhance the probability of success in meeting the projected transitional
needs expressed and determined by each Warrior.

Recommendations
We believe that these noteworthy practices may be applicable for utilization at other WTUs. As
our overall assessment progresses, we will determine whether these initiatives could be so
implemented and effectively utilized. Therefore, we are not making specific recommendations
for this observation pending further assessment research and results.




                                                 15

This Page Intentionally Left Blank




             16

Part II – Challenges





         17

This Page Intentionally Left Blank




               18

Observation B. Challenges – Brooke Army
Medical Center
The BAMC management and staff appeared to be committed to their mission statement.
However, we identified nine challenges that need to be addressed by the BAMC management to
help ensure the most successful and effective care, healing, and transition of Warriors and
support for their families.

These challenges included:
   •	 Developing an operational definition of a “successful” end-state for a Warrior, including
      measurable criteria
   •	 Applying more carefully and consistently the Army eligibility criteria for individuals
      considered for assignment or attachment to the WTB
   •	 Determining case loads by the complexity of Warriors’ care and needs, rather than by
      numerical staffing ratios
   •	 Developing a standard operating procedure for polypharmacy management in the Warrior
      Pharmacy
   •	 Ensuring that nurse case managers have the appropriate experience and are provided
      appropriate additional training to meet their needs, including on TBI/PTSD management
      and treatment
   •	 Ensuring that Warriors have timely access to specialty care (e.g. behavioral health, pain
      management, orthopedics, etc.)
   •	 Requiring two-way communication and verification of appointments so that Warriors
      avoid missing their appointments
   •	 Ensuring that Warriors’ medical records are sufficiently complete to avoid delays in
      evaluation board processing and transition to DVA care
   •	 Improving the occupational therapy process to be more effective in facilitating a 

      Warrior’s transition back to military service or to a productive civilian life

We believe that addressing these challenges will increase the effectiveness of the BAMC
management and staff in providing quality and timely care and services in support of the Warrior
mission to heal and transition.

Dedication of Brooke Army Medical Center Staff
We observed that the BAMC management and staff appeared to be fully committed to providing
the best available care and services for helping Warriors heal and transition. For example, one
nurse case manager stated, “I love my job. I love the Army. I especially love my Warriors.”
Another explained, “I am passionate about my work and what I do for our Service members . . .
and I take great pride in caring for our wounded.”

Based on our observations, this attitude reflected the overall commitment made by BAMC
management and staff to the recovery and transition of the Warriors, and their genuine care and
concern for the Warriors and their families.




                                               19

Challenges for Brooke Army Medical Center Management
There were nine challenges that need to be addressed by BAMC management to help ensure the
most successful and effective care, healing, and transition of Warriors and support for their
families. Those challenges are discussed in detail below.

Our assessment results were developed from multiple sources, to include: interviews with
BAMC and WTB management, staff, and cadre; interviews with individual Warriors; interviews
with groups of Warriors; observations at visited sites; and reviews of relevant documents to
determine whether programs for wounded, ill, and injured were managed effectively and
efficiently.

Definition of Successful Transition End-State
We could not determine from available data whether the BAMC WTB had an operational
definition as to what constituted a successful transition end-state, specifically with regard to
transitioning to “a productive, responsible citizen in society.” 19 Therefore, it was not evident
what specifically constituted mission accomplishment with respect to this mission objective.
Further, the BAMC WTB did not have clear criteria for measuring the transition process (success
or failure) so as to determine when a Service member was prepared to return to active military
duty, transition to civilian life, or continue to remain assigned or attached to the WTB.

A successful transition of a recovering Service member was described, during a discussion with
a BAMC official, as “when the physician determines that the Soldier is ready to return to duty or
be medically retired.” A WTB official stated that “there is no cookie cutter definition of success;
success is a very subjective word and truly, a successful transition varies from one Warrior to the
next.”

The Army’s Consolidated Guidance places emphasis on expeditious administrative processing
for Warriors, 20 to include the Army’s goal and intent regarding processing Warriors through the
WTU program. The Army may need to better define mission success with regard to
expeditiously processing Warriors resulting in a successful transition from the WTU (see
Appendix C). In addition, the lack of a clear operational definition of a “successful transition”
end-state by the BAMC WTB management may hamper the ability of the WTB to expeditiously
administratively process Warriors from the WTB.

Therefore, we believe that for mission success to be fully achieved by the BAMC WTB, it is
imperative that the management and staff develop a clear operational definition of a “successful
transition” end-state. Metrics should also be developed so that a measure of progress can be
determined as the transition process moves forward, the timeliness of the process can be
measured to identify choke points, and necessary adjustments can be made to improve the
transition process.


19
   This cite, “a productive, responsible citizen in society,” was taken from the Warrior mission statement, which can


be reviewed in its entirety in the Background section of this report.


20
   The emphasis on the expeditious administrative processing for Warriors found in the Consolidated Guidance is


discussed in Appendix D of this report.




                                                          20 

Moreover, it is important to identify ineffective procedures or failures in the transition process
early on so that Warriors do not spend inordinate amounts of time in the WTB, which could
exacerbate their medical condition and impede recovery. A clear operational definition of a
“successful transition” end-state, with associated metrics, will help to ensure that all Warriors
can successfully accomplish their mission of moving forward towards lifetime goals whether
returning to the military force or transitioning to a productive civilian life.

Eligibility of Warriors
As previously mentioned, the eligibility criteria for a Soldier’s assignment or attachment to a
WTU generally requires that a Soldier (1) has a profile for more than 6 months with duty
limitations, and (2) the acuity of the wound, illness, or injury requires clinical case
management. 21

Warriors believed that Soldiers were allowed into the WTB although they may not have been
eligible for assignment or attachment. Further, during a group interview with primary care
managers, they indicated that it appeared there were waivers being issued to allow certain
individuals into the WTB who did not meet established eligibility criteria.

A senior BAMC official acknowledged that “mission creep” in the form of accepting personnel
who were medically not fit for duty or accepting training students 22 that may be complicated and
unique cases, might occur. However, this official stated that while their process was not always
perfect, each Soldier assigned to the WTB was reviewed and approved prior to the unit receiving
them, and their assignment or attachment was based on the duration of their expected medical
care needs and the care required.

The final decision, according to BAMC WTB staff, for the assignment of a Soldier into the
BAMC WTB was made by a Triad of Leadership: the Senior Installation Commander, the
BAMC Commanding General, and the WTB Commander. 23 A BAMC official stated that
although this process formally existed, there was a perceived reluctance to turn away any Soldier
because of the repercussions that might transpire if a Soldier that was turned away subsequently
had medical recovery issues that resulted in transition difficulties.

We did not review the decision process described above. Nevertheless, we agree that deliberate,
transparent steps need to be taken to ensure that Warriors accepted into the WTB meet the
Army’s eligibility criteria. This would ensure that the limited resources at the BAMC WTB are
fully utilized in support of eligible Warriors and the focus of the WTB remains on Warrior care,
recovery, and transition.




21
   For the complete definition of the eligibility criteria, see the Background section of this report.
22
   According to the Consolidated Guidance, “In general, Soldiers who are in initial entry training, advanced
individual training, or one station unit training are ineligible. Only by exception will Initial Military Training
Soldiers be assigned/attached to the WTU.”
23
   According to the Consolidated Guidance, “The Triad of Leadership…executes refinements to the WTU entry
policy in order to develop a balanced WTU structure and capability that is enduring, expandable, collapsible and
responsive to the medical needs of every Warrior in Transition.”


                                                         21 

Staffing Ratios and Warrior Case Loads
As previously mentioned, the ratios of Triad of Care staff to Warriors were established at: squad
leader (1:10), nurse case manager (1:20), and primary care manager (1:200).

The BAMC staff indicated that case loads would be more manageable if based on the complexity
of each Warrior’s medical condition and other needs rather than relying solely on fixed staffing
ratios. For example, a group of primary care managers explained that the mandated 1:200 ratio
was excessive. They stated that many of the Warriors’ conditions were very complex and/or
high-risk and required additional attention from them. They also stated that the WTU system’s
inefficiencies did not often allow them to provide this additional care due to limited capacity.

Nurse case managers indicated that determining patient case loads by patient complexity rather
than fixed staffing ratios would assist them with more reasonable caseloads and provide more
time to serve as an “early warning” role for Warriors in need of special assistance.

BAMC staff suggested that a revised methodology was needed to better define Warrior needs
and staff workloads other than solely relying on pre-determined numerical staffing ratios. For
example, although not all-inclusive, the HIP Database (discussed in Observation A) was a tool
used to manage high-risk and complex patients where high-risk Warriors were coded red
(moderate-risk) or black (high-risk).

We agree that an additional methodology should be applied beyond numerical staffing ratios –
for example utilizing a tool such as the HIP Database – to help ensure that primary care
managers’ and nurse case managers’ case loads are adequately balanced with appropriate
numbers of low-, medium-, and high-risk patients. This would likely result in more efficient and
effective care and treatment of Warriors.

Polypharmacy Standard Operating Procedures
Warrior Transition Command Policy Memorandum 10-033, “Warrior Transition
Unit/Community Based Warrior Transition Unit Risk Assessment and Mitigation Policy,”
June 16, 2010, stated that Military Treatment Facility commanders will implement risk
assessment and mitigation policy, develop programs for high-risk medication management and
education, and link pharmacy support to each WTU for medication reconciliation and training in
WTUs. This policy memorandum also stated that training should specifically address the
dangers associated with polypharmacy.

We recognized that the use of the WTU P-MART customized application at BAMC was a
noteworthy practice for polypharmacy management and medication reconciliation in support of
Warriors. However, we also determined that BAMC had not developed any standard operating
procedures for how to implement polypharmacy and medication reconciliation consistently or to
ensure that standard education and training on how to address these issues were provided to
current and future WTS pharmacy and WTB staff.

Developing standard operating procedures for polypharmacy management and medication
reconciliations, and using these procedures to help provide appropriate staff with the necessary



                                                22

education and training, could significantly assist in the identification and reduction of harmful
Warrior medication-related incidents.

Experience and Training for Nurse Case Managers
BAMC management and staff, to include nurse case managers, explained that the nurse case
managers brought a variety of experience to the BAMC WTB. Nurse case managers, during a
group interview, stated that they collectively possessed a variety of experience; to include those
who have worked in an emergency room, an inpatient intensive care unit, on a medical or
surgical team, and others who had experience in case management and disease management.
Most stated that they possessed at least a Bachelor of Science in Nursing; many had earned an
advanced degree, such as a Master of Science in Nursing or a Master of Health Administration;
and a few were Certified Case Managers.

However, some nurse case managers acknowledged that they had no previous direct experience
in dealing with the military prior to accepting their current positions and, generally, had not
received specific training to equip them for their duties. Additionally, a BAMC WTB official
stated that in her opinion, while nurse case managers were generally qualified and positioned to
watch for “red flags” with Warriors, some could use more training specifically in behavioral
health issues.

Some training was offered for nurse case managers once they arrived at BAMC. However,
Warriors had a complexity of medical, psychological, social, and occupational issues that had to
be addressed to support their recovery. This situation calls for nurse case managers to possess a
high degree of experience in case management and/or to receive additional training and possibly
certification in case management, military processes, and behavioral health issues – specifically
TBI and PTSD management and treatment.

We believe that nurse case managers need appropriate preparation, which can be obtained
through additional and ongoing training, to be able to provide the effective and efficient
management and high-quality treatment necessary to support the Warrior mission to heal and
transition.

Access to Specialty Care
Warriors indicated that while they had an acceptable level of interaction with their primary care
managers, they were not receiving timely access to certain types of specialty care; such as
behavioral health services, orthopedics, and the sleep clinic, to name a few.

For example, one Warrior stated that he saw his behavioral health specialist only once every 2 to
4 weeks, and “for someone like me with PTSD, anxiety, and depression, in my opinion this is not
nearly enough.” He also stated that when he did see his behavioral health specialist, the sessions
were usually an hour or two, were very helpful, and were meeting his needs. Further, another
Warrior, during a group interview, mentioned that “certain specialty appointments, such as
orthopedics and sleep study, are very difficult to get into.”

Finally, another Warrior mentioned, during a different group interview, that he had problems
getting appointments with specialists. For example, he stated that it took him 60 days to get an


                                                23

orthopedic appointment and 60 to 90 days to get an appointment with the pain clinic. During this
same group interview, a Warrior stated that he was ordered to the sleep apnea clinic 6 months
ago and was “still waiting for an appointment.”

While we acknowledge that certain specialty care positions are understaffed, a more proactive
approach to obtaining specialty care appointments would assist with Warrior recovery, and could
also reduce the length of time Warriors spend reaching a successful transition. BAMC
management should seek greater efficiency in providing access to and provision of Warrior
specialty care services.

Appointment Management
We were informed by multiple staff that Warrior appointments had been repeatedly made,
rescheduled, or cancelled. Ensuring that these multiple appointments do not conflict was a
significant challenge for the Warrior support staff. For example, during a group interview, nurse
case managers stated that there were at least three sources of appointments: BAMC (available in
the Composite Health Care System), the DVA, and other appointments made through a
Warriors’ Physical Evaluation Board Liaison Officer. 24

It was further explained that the mandated use of the “Central Booking System” to book
appointments had, in some Warrior’s opinions, created problems for them such as being
scheduled with the wrong physician or being sent for counseling for the wrong medical
condition.

Warriors also cited the one-way communication with the staff (primarily nurse case managers)
responsible for making appointments as a problem. One Warrior stated that a verification
method was not used by those making the appointments to ensure that Warriors were aware and
had acknowledged that an appointment had been scheduled. Without a verification method in
use, nurse case managers could not be sure that a Warrior was aware that an appointment had
been scheduled and could not follow up if an acknowledgement was not received.

During a group interview with primary care managers, they stated that missed appointments, for
whatever reason these occurred, were a significant problem that resulted in wasted resources, a
backlog in patient care, and a negative impact on Warrior healthcare delivery.

We believe that BAMC management needs to develop and enforce two-way communication and
verification for appointments. This communication and verification will help ensure that missed
appointments are avoided and, to the extent possible, missed appointments do not result in the
misuse of scarce resources needed for the support of Warrior care.




24
  The Physical Evaluation Board Liaison Officer helps to manage expectations, coordinate medical appointments,
and handle the recovering Service member’s case files through the Disability Evaluation System process for a
determination on fitness. The process results in one of four determinations: fit for duty, unfit for duty and
separation, unfit for duty and retirement, or unfit for duty and retained.


                                                      24

Medical Record Management
Multiple individuals – from Warriors, BAMC WTB management and staff, to DVA officials –
acknowledged that obtaining Warriors’ complete medical records to meet requirements for
evaluation board processing and transition to DVA had been a continuing challenge. They
observed that this problem was more prevalent with Army National Guard and Army Reserve
Warriors since much of their healthcare was likely to have been with civilian healthcare
providers. Those medical records have generally proven more difficult to obtain.

It was explained that a Warriors’ medical records were requested once the evaluation board
processing was initiated. The receipt of records was not always timely, and the records were
often incomplete, or were missing altogether. There needed to be a more efficient, thorough, and
timely process for transitioning Warriors’ medical records from the DOD to DVA, especially for
high-risk patients, according to the collective views expressed.

A senior BAMC official acknowledged that incomplete medical records for Warriors that were
in, or preparing to enter, the evaluation board process usually delayed the transition process.
This resulted in longer stays in the WTUs for Warriors. But, this official noted, it was not
always within the BAMC command’s authority to obtain certain records.

A more proactive approach to obtaining medical records before a Warrior’s evaluation board is
initiated may likely reduce unnecessary delays during Warriors’ transitions. For example, the
process to obtain the medical records could be initiated at the time of the Warrior’s entry into the
WTB, rather than when an evaluation board process is initiated.

Occupational Therapy Process
We recognized that the concept of the WINTAP classes was a potential noteworthy practice and
an innovative technique in support of the Warrior’s rehabilitation process. In conjunction with
other occupational therapy programs, it could facilitate a Warrior’s transition back to military
service or to a productive civilian life. As the TBI Clinic staff explained, “Soldiers need to be
employed a lot!” They added that Soldiers needed to get jobs, because jobs were keys to
wellness. Jobs brought purpose and meaning to life because they distracted the Soldier from
pain and helped with a healthy sleep routine.

However, in its implementation, it appeared that staffing constraints and apparent
communication problems with the cadre might be limiting the occupational therapy staffs’ ability
to meet all requirements related to meeting Soldier needs. With only one Occupational
Therapist 25 and three Certified Occupational Therapy Assistants, 26 there were limits on the


25
   Occupational Therapists require a Master’s degree in Occupational Therapy from a school with an accredited
occupational therapy program. A national certification is obtained through the National Board for Certification in
Occupational Therapy and also a State licensure to practice, both of which are renewed regularly. A renewal of
licensure and certification requires a set amount of continuing education requirements that have to be maintained.
Occupational therapists also have to be credentialed as a medical provider through BAMC.
26
   Certified Occupational Therapy Assistants require an Associate’s degree in Occupational Therapy from a school
with an accredited program. A national certification is obtained through the National Board for Certification in
Occupational Therapy and also a State licensure to practice, both of which are renewed regularly. A renewal of


                                                        25

support for each Warrior, and the degree to which each Certified Occupational Therapy Assistant
could be supervised by the occupational therapist.

Further, a BAMC official stated that the occupational therapy staff had difficulty finding job
placements for various reasons. Foremost was a lack of job opportunities appropriate to age,
rank, injury, life cycle, and experience of each Warrior. They stated that Warriors could not for
legal reasons be placed in private, commercial businesses, either as paid employees or as
volunteers. However, the Warriors might have been able to volunteer as private or public
nonprofit organizations in the community. The staff acknowledged that additional manpower
and funding to explore vocational opportunities in the community was needed.

The WTB must actively promote use of the occupational therapy programs. A BAMC official
pointed out that cadre (usually squad leaders) often told Warriors that occupational therapy
classes and evaluations were not required or even necessary, even though Warrior Transition
Command policy existed that stated that every Soldier needed meaningful occupation.

In addition, there was a lack of reasonable metrics to determine the effectiveness of the
occupational therapy process. Metrics should be developed so that a measure of success or
failure can be determined as the occupational therapy process moves forward; the timeliness of
the process can be measured to identify choke points; and necessary adjustments can be made to
improve the process.

Conclusion
We briefed BAMC and WTB senior officials at the conclusion of our site visit. The officials
acknowledged the challenges that they faced at the BAMC WTB and expressed their dedication
to finding the right solutions. We believe that as BAMC management continues to focus on the
challenges described in this report and works to implement the following recommendations, they
will improve the operational environment necessary to provide the most effective and efficient
care, healing, and transition for Warriors and their families.

Recommendations, Management Comments, and Our
Responses
B1. We recommend that the Commanding General, Brooke Army Medical Center:

      a. Implement Warrior Transition Command Policy Memorandum 10-033,
“Warrior Transition Unit/Community Based Warrior Transition Unit Risk Assessment
and Mitigation Policy,” June 16, 2010, by:

            (1) Developing standard operating procedures for polypharmacy
management and medication reconciliations within the Warrior Pharmacy at Brooke
Army Medical Center; and



licensure and certification requires a set amount of continuing education requirements that have to be maintained.
Certified Occupational Therapy Assistants require a minimum of 1 year work experience.


                                                         26
              (2) Developing a comprehensive training program for all pharmacy staff and
other Brooke Army Medical Center and Warrior Transition Battalion staff, as
appropriate, to provide the necessary education and training for the identification and
reduction of medication-related incidents that could harm Warriors in Transition.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendations.
He stated that BAMC’s Sole Provider Committee would meet on February 9, 2011, to develop
standard operating procedures for polypharmacy management. The operating procedures will
address (i) polypharmacy operations and responsibility, (ii) sole provider responsibilities, and
(iii) urinalysis in drug testing. He further stated that the Sole Provider Committee will also
address the education and training needs for BAMC and WTB staff, and once the needs are
identified, comprehensive training will be provided by the pharmacy staff. The Commanding
General stated that a draft of polypharmacy management standard operating procedures will be
completed and education and training requirements will be identified by March 31, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

       b.	 Establish standards for specialty care appointments that include:

             (1) Developing standards of acceptable and unacceptable wait-times for
obtaining appointments for specialty care services; and

              (2) Obtaining monthly reports from the Chief of Case Management, once
the standards are developed and implemented as a result of recommendation B1.b.(1), to
ensure that implementation and wait-times can be monitored and managed.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendations.
He stated that BAMC has a seven day access to care standard for initial consult, and that
according to statistics from the Department of Clinical and Health Operations, the WTB was
within these standards 93.5 percent of the time for the first quarter of FY 2011; a 13.7 percent
improvement from the last quarter. The Commanding General also stated that there were several
improvements made since our June 2010 inspection, to include:
   •	 BAMC has increased the Warriors’ access to behavioral health providers
   •	 Each company in the WTB now has a dedicated psychiatrist and psychologist
   •	 The Pain Clinic has its largest number of military providers (3) and is considering hiring
      more civilian providers
   •	 Orthopedics merged with Wilford Hall Medical Center Orthopedics to increase the
      number of available providers
   •	 The Warrior in Transition Clinic added a new physician and physician assistant and is
      awaiting three additional physician assistants



                                               27

   •	 The Warrior in Transition Clinic implemented a sick-call process in December 2010 to
      improve access to acute care
   •	 The Department of Clinical and Health Operations is looking to change appointment
      scheduling for Warrior slots to two weeks out to decrease unused appointments, thereby
      approving access to care
The Commanding General stated that the majority of the improvements had been completed, and
the arrival of the new physician assistants to the Warrior in Transition Clinic is expected to occur
no later than July 31, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

      c. Develop procedures for verification of appointments made for Warriors in
Transition. The procedures should ensure that when appointments are scheduled, an
acknowledgement is received from the Warrior in Transition and documented for those
appointments.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendation,
stating that procedures were already in place for verification of appointments. Specifically,
Warriors have a weekly meeting with their nurse case managers where they receive their
appointment sheets and sign a copy to be filed. He also stated that squad leaders print out and
review appointment slips daily with the Warriors to account for changes and serve as a reminder.
The Commanding General acknowledged that a challenge remains with appointments with the
Department of Veterans Affairs (DVA) because the BAMC and DVA databases are not
compatible. Therefore, the nurse case managers rely on the PEBLOs for confirmation of DVA
appointments. The Commanding General stated that because procedures were already in place,
the implementation of this recommendation is complete.

Our Response
The Commanding General’s comments are partially responsive. We acknowledge that the
WTB’s current procedures for appointment verification – to include weekly meetings with nurse
case managers and daily appointment slips from squad leaders – are ways for Warriors to verify
their appointment schedules. We also acknowledge and agree that verification of Warrior
appointments with the DVA remains a challenge because BAMC and DVA databases are not
compatible.

However, it is unclear as to whether these current procedures ensure verification of all types of
appointments, to include last-minute scheduling changes and DVA appointments. Therefore, we
ask that in response to the final report, the Commanding General provide metrics for three
months worth of data showing that those current procedures are mitigating missed appointments.
This data should include those appointments made with the DVA through the PEBLOs. If
challenges still remain, we ask that he reconsider his response and develop additional procedures
for verification of appointments made for Warriors in Transition.


                                                28

B2. We recommend that the Commanding General, Brooke Army Medical Center, in
coordination with the Commander, Warrior Transition Battalion:

        a. Develop an operational definition of a successful transition end-state that
specifically defines mission accomplishment for Warriors in Transition who are not
returning to the force but are transitioning to civilian life. In addition, develop metrics for
Warriors in Transition returning to the force or transitioning to civilian life so that (1) a
measure of success or failure can be determined as the transition process moves forward,
(2) the timeliness of the process can be measured to identify choke points, and (3) necessary
adjustments can be made to improve the transition process.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendation.
He commented that in lieu of a standardized definition across the Warrior Transition Units,
BAMC WTB’s operational definition of a successful transition end-state/mission
accomplishment for Warriors returning to civilian life is:
               “The WT has received his/her final Physical Evaluation Board/Medical
               Evaluation Board evaluation findings and has exited the WTB program with a
               clear transition plan that he/she will continue to take charge of.”
The Commanding General further stated that on February 16, 2011, WTB staff plans to conduct
an updated mission analysis on transitioning Warriors, specifically identifying metrics to gauge
transition progress. He concluded that this will be implemented no later than June 30, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.

       b. Establish an appropriate, transparent, and clearly defined process that is
implemented consistently to review all Soldiers who are referred for assignment or
attachment to the Brooke Army Medical Center Warrior Transition Battalion and admit
only those Soldiers in accordance with the “Warrior Transition Unit Consolidated
Guidance (Administrative),” March 20, 2009. When an exception or waiver is made to
admit a Soldier who does not meet the eligibility criteria, the justification for the exception
or waiver should be documented to ensure the transparency of the process.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendation,
stating that the WTB maintains a record of all assignments or attachments within its Personnel
Administrative Section. He further stated that in accordance with AR 40-400 (Patient
Administration) screening criteria and processing, WTU transfer requests must undergo both an
administrative and medical screening before the approval process begins. He stated that the
WTB Patient Administrative personnel maintain all paperwork when the chain of command
grants exceptions or waivers, and that because procedures were already in place, the
implementation of this recommendation is complete.


                                                   29

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.

        c. Establish an additional method beyond utilization of current staffing ratios –
such as patient medical care complexity – for determining case loads of nurse case
managers and primary care managers. As a result, they would be able to more effectively
manage the medical cases and provide for the full range of needs of all Warriors in
Transition. Once this additional method is established, determine the impact its
application will have on current staffing levels and whether additional nurse case manager
and primary care manager positions are required. If so, determine whether increased
staffing levels can be resourced.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendation.
He stated that the large Warrior population and current WTB manning equate to a squad leader
to Warrior ratio of 1:10. WTB companies deliberately avoid grouping Warriors with behavioral
health and/or medical care complexities into one squad to prevent a squad leader from becoming
overburdened with only a few members of his/her squad. The Commanding General further
commented that the chain of command carefully considers what the squad leader has already
been through (such as a Warrior’s death) for Warrior placement in squads to prevent staff
burnout. The Commanding General concluded that the implementation of this recommendation
is complete.

Our Response
The Commanding General’s comments are not responsive. This recommendation addressed
establishing an additional method beyond utilization of current staffing ratios for determining
patient case loads of nurse case managers and primary care managers. The BAMC response
discussed patient case loads of squad leaders. In response to the final report, we request that the
Commanding General, Brooke Army Medical Center provide additional comments on this
recommendation that are specific to nurse case managers and primary care managers.

       d. Develop a mandatory, comprehensive program to provide additional training for
nurse case managers that is specific to their needs and provides, at a minimum:

             (1) Information on military culture, DOD and Army policies and processes,
and Warrior care issues specific to the Brooke Army Medical Center Warrior Transition
Battalion;

             (2) The skills and knowledge required for effective case management within
the Brooke Army Medical Center Warrior Transition Battalion;

               (3) The medical education required to handle behavioral health issues,
specifically, Traumatic Brain Injury and Post Traumatic Stress Disorder and their
management and treatment; and



                                                30

              (4) A comprehensive overview of the services provided at Brooke Army
Medical Center within the Traumatic Brain Injury Clinic and the Department of
Behavioral Medicine so that nurse case managers can provide knowledgeable assistance to
the Warriors in Transition.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendations.
He stated that mandatory training is already ongoing within nurse case management. New nurse
case managers must go to the BAMC orientation class and take nine automated courses in
addition to the mandated training in Army Medical Department Personnel Education and Quality
System. The automated training covers two case management modules, Traumatic Brain Injury,
Post Traumatic Stress Disorder (PTSD), Neurobiology and Pharmacotherapy for PTSD, and
combat stress injuries. Further, the Commanding General stated that nurse case managers also
take the two week Army Medical Department Center and School WTU Cadre Course to learn the
specifics of working in the unique organizations. He added that once a nurse case manager
completes his/her mandatory courses, he/she becomes involved in a preceptor program that
teaches the specifics of the BAMC nurse case manager program by shadowing a sponsoring
nurse case manager where they apply standardized procedures, polices and operations unique to
the system before handling their own caseloads.

Additionally, the Commanding General stated that throughout the year, there are two to three
in-services that occur each month with guest subject matter expert speakers who cover new
topics or old topics as a refresher. Another course that nurse case management encourages their
case managers to take is the Army Nurse Case Management Course. Since there are mandatory
training programs for new nurse case managers and additional training is provided throughout
the year, the Commanding General stated that the implementation of this recommendation is
complete.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

       e. Develop procedures to initiate a process to obtain complete medical records for
all Warriors in Transition within 30 days of arriving at the Brooke Army Medical Center
Warrior Transition Battalion. This may facilitate medical care treatment and prevent
unnecessary delays caused by incomplete medical records once a Warrior in Transition is
subject to an evaluation board process.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendation.
He stated that the WTB is reviewing their existing standard operating procedures to determine if
the process for a quicker receipt of medical records needs more refinement. He agreed that
procedures to initiate the request for complete medical records within 30 days would allow more
time to receive the records; however, he added that this should be determined by the Soldier’s
projected longevity in the WTB as not all Soldiers who arrive at the WTB will remain for a long
period of time. The Commanding General stated that if a Warrior’s stay is less than 90 days,


                                               31

requested records may not arrive in time for their departure, especially in the case of National
Guard and Reserve Component Soldiers. Ordering medical records for cases such as burns and
amputees, who are most likely to be long-term residents, would be the best population to initiate
an early request for records. The Commanding General stated that the completion date for the
review and modification to the standard operating procedures (if applicable) will be no later than
June 30, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.

       f. Improve the occupational therapy process by:

             (1) Developing an operational definition of an end state goal and
corresponding metrics defining a successful occupational therapy process. Metrics should
enable management to determine progress as the occupational therapy process moves
forward; measure the timeliness of the process to identify choke points; and make
necessary adjustments to improve the process;

             (2) Determining the staffing and funding needed to carry out existing
programs effectively and increase the development of vocational opportunities in the
community to provide work structure that facilitates recovery of Warriors in Transition;
and

               (3) Assessing the relationship between the occupational therapy program
and the Warrior Transition Battalion cadre. Based on this assessment, management
should determine whether improved communication and cooperation is necessary and how
to achieve this result.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center concurred with the recommendations,
stating that in lieu of a standardized operational definition of an end state/goal across the WTUs,
BAMC WTB Occupational Therapy (OT) will use the following definition:
               “All Warriors will have completed the OT program with the final product being
               a viable transition plan with specific, measurable, attainable, realistic, and timely
               (SMART) goals implemented and being used within the first 30 days in the
               WTB.”
The Commanding General added that metrics to assess this goal will include:
       •   OT evaluation within 14 days
       •   WINTAP instruction within 30 days
       •   Set CTP track within 21-30 days
       •   Initiate transition plan with SMART goals in at least 3 domains within 21 days
       •   Follow/up appointments with the Warrior at least every 30 days
       •   Complete re-evaluation every 90 days



                                                       32

The Commanding General noted that BAMC WTB OT is currently understaffed since some
positions – one Occupational Therapist, three Certified Occupational Therapy Assistants, and
two Physical Therapy Assistants – are still in the process of being filled. He further stated that
they also identified the need for three additional Occupational Therapists (one per company) and
one administrative assistant, which would cost approximately $350,500 for personnel ($101,500
per therapist and $46,200 for the administrative assistant) and $50,000 for equipment and
evaluation tools.

The Commanding General added that with regard to recommendation B.2.f.(3), their assessment
of increased communication could be in the form of cadre questionnaire, climate surveys, or
face-to-face inquiry with key cadre personnel. He agreed that their effort to increase
communication needs to be an ongoing project and one that includes, but is not limited to:
       •	 Periodic (at minimum quarterly) in-services with cadre regarding the role of OT and
          available services
       •	 Increased visibility of OT in all company level training meetings
       •	 Increased OT visibility and participation in all Warrior care meetings
The Commanding General stated that the completion date for these procedures would be no later
than June 30, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendations. No further action is required.




                                                33

Observation C. Challenges – Warrior Transition
Battalion
The WTB management and staff appeared to be committed to their mission statement. However,
we identified eight challenges that need to be addressed by WTB management to help ensure the
most successful and effective care, healing, and transition of Warriors and support for their
families.

These challenges included:
     •	 Modifying the CTP process to make it a more meaningful management tool and to ensure
        the protection of Warriors’ personal and medical information
     •	 Applying more carefully and consistently the Army eligibility criteria for individuals
        considered for assignment or attachment to the WTB
     •	 Determining case loads by the complexity of assigned or attached Warrior’s care and
        needs, rather than by numerical staffing ratios
     •	 Improving the adherence to military standards of good order and discipline, within the
        context of Warrior’s physical impairments
     •	 Ensuring the best organization of squads, platoons, and companies within the WTB that
        facilitates Warrior healing and transition
     •	 Providing enhanced medical, information technology, and other training to WTB non­
        commissioned officers prior to and during their WTB assignment
     •	 Developing an alternative approach for handling acute care issues 27 for Warriors who are
        unable to gain timely access to their primary care manager
     •	 Ensuring that transportation to a new Warrior complex under construction does not
        hamper Warriors’ access to care and services
We believe that addressing these challenges will increase the effectiveness of the WTB
management and staff in providing quality and timely care and services in support of the Warrior
mission to heal and transition.

Dedication of Warrior Transition Battalion Management and
Staff
We observed that the WTB management and staff appeared to be fully committed to providing
the best available care and services for helping Warriors heal and transition. For example, one
squad leader stated that he made it a personal duty to go the extra mile for each and every one of
his Warriors. He also believed a lot of good was done in the battalion, and he found his job
“tiresome, but extremely rewarding.” Also, when asked how they were assigned to the WTB,
many squad leaders stated that they had volunteered. One specifically stated that he volunteered
because as a medic, he “liked to take care of people and help them recover.”




27
  According to Taber’s Cyclopedic Medical Dictionary, 11th Edition, 1970, an acute care issue is defined as an issue
that has rapid onset, severe symptoms, a short course, and is not chronic in nature.


                                                        34

Based on our observations, this attitude reflected the overall commitment made by WTB
management and staff to the recovery and transition of the Warriors, and their genuine care and
concern for the Warriors and their families.

Challenges for Warrior Transition Battalion Management
There were eight challenges that need to be addressed by WTB management to help ensure the
most successful and effective care, healing, and transition of Warriors and support for their
families. Those challenges are discussed in detail below.

Our assessment results were developed from multiple sources, to include: interviews with
BAMC and WTB management, staff, and cadre; interviews with individual Warriors; interviews
with groups of Warriors; observations at visited sites; and reviews of relevant documents to
determine whether programs for wounded, ill, and injured were managed effectively and
efficiently.

Comprehensive Transition Plan
The CTP is a broad look at the current status of a Warrior and the formulation of a program of
action aimed to help the Warrior move from one stage of his/her transition to the next. The
Warrior was to provide initial input on his/her goals in 5 clinical self-assessment categories, 28
12 non-clinical self-assessment categories, 29 and the Warrior’s desired transition status. A plan
was then formulated to help guide the Warrior on a path to receive medical care and achieve
transition with the help of the squad leader, nurse case manager, primary care manager, social
worker, occupational therapist, and other healthcare providers.

Personal Information Contained in Comprehensive Transition Plans
Warrior CTPs contained personal information about each Warrior’s self-assessment of their
progress in the 5 clinical and 12 non-clinical categories that were to guide them throughout their
transition. This information is personal and often protected by the Privacy Act of 1974 and the
Health Insurance Portability and Accountability Act of 1996.

Recently, the CTP transitioned to an on-line tool using the Warrior Transition Program Army
Knowledge Online website. One squad leader mentioned that when he was reviewing a
Warrior’s CTP online, both he and that Warrior could see every squad member’s CTP. Another
Warrior emphasized his belief that it was inappropriate for him and his squad leader to review
the Warrior’s CTP online because he “could see other Soldiers’ CTPs along with his.”

It is imperative that the WTB management and staff ensure the protection of each Warrior’s
personal information when staff or other Warriors are reviewing CTPs via the website.




28
  The 5 categories are activities of daily living, health care, medication, pain, and behavioral health.

29
  The 12 categories are work plan, education, employment, weight control, physical fitness, well being, social,

family, financial, housing, administrative support, and transportation.



                                                         35

One Size Fits All
Warriors generally agreed that the CTP was a “check the block” requirement. They also
contended that a “cookie cutter approach” for completing a CTP may not apply to all Warriors.
Interestingly, several senior enlisted Warriors did not believe the CTP was beneficial for them.
However, they felt it would be a good tool for junior enlisted Warriors to help keep those
individuals focused.

While Warriors appeared to understand the justification for establishing the CTP, it was
suggested that implementation should be on a “case-by-case” or situational basis. One Warrior
felt, at the very least, that the CTP process should be modified accordingly to ensure that it is
beneficial for all Warriors, as opposed to being a mandated requirement. This Warrior also
suggested that conducting a needs assessment of Warriors at the appropriate time in their
recovery process to provide data for the CTP may be more beneficial than a forced requirement
on all Warriors.

We believe that a situational approach to CTP implementation would also enable squad leaders
to gain additional time with their Warriors and provide them with more personalized guidance
during the transition process.

Eligibility of Warriors
The issue of accepting Warriors into the program who did not meet the eligibility criteria for
assignment or attachment to the WTB, as discussed in Observation B, was also an issue raised by
WTB staff. It was stated during a group interview with WTB company cadre that the guidance
governing assignment to a WTU was not followed at BAMC, which resulted in the WTB being
perceived to have become a “dumping ground” for ill and injured soldiers. This practice may
result in diminishing the resources available to Warriors that meet the eligibility criteria.

Further, during a different group interview with “Triad of Care” members, they agreed that it
appeared that the WTB was accepting all applicants for assignment to the WTB and the
eligibility criteria were often being waived and not applied consistently. It was mentioned
during several group meetings that a possible solution would be to reinstate the medical hold and
medical holdover units 30 for Advanced Individual Training (AIT) students, Warriors with minor
injuries and illnesses, or those who had healed and were waiting evaluation board processing.
This approach would enable the WTB to better focus on the seriously wounded, ill, and injured,
to include those who were combat wounded.

As stated in Observation B, we did not review the decision process for admitting Soldiers into
the WTB. Nevertheless, we believe that deliberate, transparent steps need to be taken to ensure
that Warriors accepted into the WTB meet the Army’s eligibility criteria. This would ensure that



30
  Medical hold units provide command and control for active component and mobilized reserve component Soldiers
who are not medically fit for duty. These units may sometimes be found at Army Military Treatment Facilities,
including Army hospitals. Medical holdover units are comprised of two categories: (1) Soldiers who were
mobilized to active duty, but who for medical reasons were non-deployable, and (2) Soldiers who were mobilized
and deployed but sustained injuries, which make them not fit to return to duty.


                                                     36

the limited resources at the BAMC WTB are fully utilized in support of eligible Warriors and the
focus of the WTB remains on Warrior care, recovery, and transition.

Staffing Ratios and Warrior Case Loads
The issue of staffing ratios, as discussed in Observation B, was also an issue discussed by WTB
cadre, particularly squad leaders. The squad leader’s case load is based on a staffing ratio of
1 squad leader to 10 Warriors. However, squad leaders at the BAMC WTB stated that they did
not have enough time to handle their workload because “things change constantly” and “you
never know what you’ll face with your Warriors day-by-day.”

Several squad leaders mentioned that they felt overworked and that the ratio needed to decrease
because supporting 10 Warriors was too demanding, especially when, in the case of one squad
leader, all 10 of his Warriors were considered high-risk. Another squad leader agreed that ratios
should decrease because the numbers of behavioral health patients were continuously increasing,
and those patients were extremely time-consuming and high-risk.

Further, one platoon sergeant mentioned during a group interview that the 1:10 ratio of squad
leaders to Warriors needed to be revisited because squad leaders were not only addressing the
needs of their 10 Warriors but were also supporting Warrior family members and significant
others.

A more balanced and manageable approach to Warrior assignments to squads would likely result
in more effective care and treatment of Warriors. Assigning Warriors based on the complexity
of their condition rather than simple numerical staffing rations, would allow squad leaders
additional time to exert their frontline leadership on behalf of their Warriors. The squad leaders
could then become more involved with each of their squad members and provide more
personalized guidance during the transition process.

Good Order and Discipline
A common theme among many squad leaders and platoon sergeants was the perception that their
chain of command was not consistently enforcing military standards of good order and discipline
within their units. Warrior Transition Command (Provisional) Policy Memorandum 09-001,
“Warrior in Transition (WT) Medical and Military Responsibilities,” March 8, 2010, states that
despite their individual illnesses or injuries, Warriors remain subject to Army regulations,
customs and courtesies, administrative policies, and the Uniform Code of Military Justice. The
policy memorandum further states that commanders are responsible for maintaining good order
and discipline in WTUs, and are to enforce all applicable Army regulations and policies.

The policy memorandum also states that commanders will do everything possible to assist and
enable Warriors to heal and transition successfully and will use their experience and discretion to
assess incidents of non-compliance and misconduct on a case-by-case basis. The policy provides
commanders the available options of counseling, return to unit, non-judicial punishment,
administrative separation, and courts-martial. However, the policy specifically states that the use
of illegal drugs will result in mandatory separation processing in accordance with Army




                                                37

Regulation 635-200, 31 and may result in Uniform Code of Military Justice action, if such action
is deemed appropriate by the Soldier’s commander.

Squad leaders stated that some of the more common allegations of non-compliance or
misconduct committed by Warriors included missing formations, missing appointments, and
testing positive for illegal or unauthorized drugs. Squad leaders explained that they handled
discipline by preparing counseling statements to document the alleged non-compliance or
misconduct, counseling the Warriors regarding their situation, and providing their documentation
along with a recommended action to the chain of command. Squad leaders expressed frustration
because their recommendations were usually overridden and discipline or punishment was
significantly reduced, suspended, or not enforced.

For example, one squad leader stated that a Warrior he inherited from another squad leader had
tested positive for illegal drugs on five consecutive drug tests. The Warrior continuously
received “slaps on the wrist” until the fifth occurrence, at which time Uniform Code of Military
Justice action was taken. However, the Warrior was neither removed from the WTB nor
separated from the Army. In another example, the staff of the BAMC TBI Clinic stated that lack
of order and discipline can reduce recovery success. They specifically noted the following
examples concerning order and discipline:
       •	 there is no “late policy” or punishment for formations, scheduled appointments, or work;
          therefore, Soldiers show up late
       •	 there is no policy on the wearing of uniforms
       •	 there is no requirement for physical training that Soldiers can handle, given their injuries
Most squad leaders noted that they understood the unique nature of a WTU and believed many
Warriors who committed infractions should be handled on a “case-by-case basis, especially for
less serious issues.” However, they contended that “Warriors are still Soldiers.” Most squad
leaders maintained that punishment for misconduct should be more readily enforced to maintain
good order and discipline within their units. Squad leaders also believed that the lack of
punishment for blatant Warrior infractions was affecting squad leader effectiveness and could
ultimately be affecting Warrior healing.

Given the unique population of Soldiers in the WTB, in which the staff are committed to the
Warriors’ medical recovery, we believe that WTB commander guidance and intent should be
developed that provides direction as to how good order and discipline will be implemented that
is appropriate to achieving the WTB mission. Warrior Transition Command (Provisional) Policy
Memorandum 09-001 should be used as a guide for the development of the commander’s
guidance and intent.

Organization of Units
Squad leaders noted that there might be a better way to organize units to support the care and
transition of Warriors. They indicated that Warriors were being assigned to squads on an
availability basis, but that arbitrarily placing Warriors in the next available squad may not be the


31
     Army Regulation 635–200, “Active Duty Enlisted Administrative Separations,” June 6, 2005.


                                                        38

most beneficial environment for some Warriors. Some of the suggestions from squad leaders
regarding how to best organize units included:
   •	 Creating “senior platoon(s)” for officers and senior non-commissioned officers with a
      squad leader of appropriate rank
   •	 Creating a “fit for duty” unit so Warriors returning to duty can participate in physical
      training and other activities as they prepare to return to their home unit
   •	 Assigning theater-evacuated wounded, ill, and injured to a separate company
   •	 Separating Warriors by injury because Warriors now perceive their injury as their “new
      Military Occupational Specialty”
   •	 Separating AIT students from other Warriors
While there were pros and cons mentioned for each of these suggestions, the current
organizational structure was often a contentious issue for both squad leaders and Warriors. For
example, the need for AIT students to be placed in either a separate squad within the WTU or not
be admitted to the WTU at all seemed to be an almost unanimous opinion expressed by squad
leaders and Warriors alike.

According to our information, some other WTUs were already organizing their squads
differently. For example, the Fort Hood WTU had built separate facilities for combat-wounded
Soldiers. In another example, one squad leader in the BAMC WTB stated that he was previously
assigned to the Fort Polk WTU where they had a senior platoon, which he believed worked very
well.

Exploring different options for the organization of WTUs could be very beneficial in ensuring
that Warriors are placed in the most appropriate military setting to facilitate their healing and
transition.

Squad Leader Training
Several squad leaders explained that they received a 2-week training course when first arriving at
the WTB, and while it was perceived as somewhat beneficial, many believed that a squad leader
within a WTU needs more specialized training. Several squad leaders stated that the WTB could
reduce some of the training classes provided to squad leaders because of the redundancy of the
training material. On the other hand, other squad leaders stated that they could use more training
on certain job duties that are particular to being assigned as a squad leader at a WTU, such as
enhanced medical training and information technology training. Some of the suggestions from
squad leaders on training that would enhance their effectiveness included training on:
   •	 In-processing Warriors into the WTB
   •	 Communicating effectively with Soldiers and families
   •	 Understanding signs of TBI and PTSD
   •	 Learning the roles of the nurse case manager, primary care manager, social workers, and
      others with whom they had to work effectively
   •	 Recognizing common medications, potential interactions, and symptoms
   •	 Receiving enhanced information technology training for WTU-specific requirements,
      such as administering the CTP online



                                                39

We believe that providing additional and ongoing training that strengthens squad leaders’
abilities to support accomplishment of the WTB mission is required.

Acute Care for Warriors
Each Warrior was assigned a primary care manager who became the Warrior’s medical point of
contact, healthcare advocate, and coordinator with other physicians to ensure that the Warrior
received the necessary medical treatment. The BAMC WTB staff indicated that Warriors called
their nurse case managers when they required medical assistance for an acute care issue that was
not part of their routine care or was not an emergency. The nurse case managers then attempted
to schedule an appointment for the Warriors to see their primary care manager the same day.

The Warrior had the option of going to the emergency room for care and treatment if the primary
care manager was not able to schedule an appointment in an acceptable amount of time.
However, the attending emergency room healthcare provider would not likely be aware of the
Warrior’s particular illnesses or injuries for which the Warrior had been assigned or attached to
the WTB. For example, this lack of knowledge may include medical details concerning
prescribed medications, which could impact the acute care treatment received by the Warrior.

BAMC WTB staff indicated there were efforts under consideration to establish primary care
management teams that would include “physician extenders” – such as physician assistants,
nurse practitioners, or nurses – to better manage Warriors’ acute care issues.

Until this occurs, we believe that developing an alternative approach for handling acute care
issues for Warriors is needed for those who are unable to gain timely access to their primary care
manager. For example, dedicating certain hours in the Warrior clinic during which a Warrior
could obtain care as a walk-in would assist them with maintaining a consistent relationship with
a healthcare provider. This would also assist the healthcare provider to better understand the
uniqueness of each Warrior’s illness or injury and become better positioned to deliver continuous
and comprehensive care.

Construction of New Facilities
The Warrior campus facilities we observed included, but were not limited to, the Center for the
Intrepid, Fisher Houses, the Powless Guest House, Warrior barracks, WTB headquarters and
company buildings, and the Warrior Family Support Center, 32 all of which were located near the
BAMC Military Treatment Facility. However, under the Base Realignment and Closure
program, a new Warrior complex – a two-story headquarters and a five-story Warrior barracks –
were under construction on the Fort Sam Houston main post.

WTB staff were concerned that the location of this new complex would require Warriors to
utilize some form of transportation to get to the existing Warrior campus to access the services at
BAMC, use certain facilities such as the Center for the Intrepid or the Warrior Family Support
Center, or to visit family who may be staying at the Powless Guest House.


32
  The Warrior Family Support Center was unique to the BAMC WTB as a one of a kind “home away from home”
for Warriors and their families undergoing medical rehabilitation and treatment at BAMC.


                                                   40

The distant location of the new complex from the existing Warrior campus has generated other
concerns about future access. One concern was that burn patients who have problems with body
temperature regulation might have to wait outside for transportation. Another concern was that
amputees in wheelchairs may have to deal with the added burden of handicap-accessible
transportation. Still another concern was the increased distance from the new Warrior barracks
to the Warrior Family Support Center, which increased the likelihood that Warriors might not be
as motivated to utilize this facility because of the added transportation requirement.

Warriors located at the new complex should not be unduly hampered in gaining access to care
and services located at the existing medical center campus. Therefore, we believe that the WTB
management should proactively plan to address logistical and transportation issues for Warriors
that will be located at the new complex.

Conclusion
We briefed BAMC and WTB senior officials at the conclusion of our site visit. The officials
acknowledged the challenges they faced at the BAMC WTB and expressed their dedication to
finding the right solutions. We believe that as WTB management continues to focus on the
challenges described in this report and works to implement the following recommendations, they
will improve the operational environment necessary to provide the most effective and efficient
care, healing, and transition for Warriors and their families.

Recommendations, Management Comments, and Our
Responses
C1. We recommend that the Commander, Warrior Transition Battalion:

       a. Improve the use of the Comprehensive Transition Plan by:

              (1) Developing improved procedures to ensure that the Comprehensive
Transition Plan process is more beneficial and effective for Warriors in Transition;

              (2) Investigating the alleged potential disclosures of personal health
information when viewing the Comprehensive Transition Plan to determine the associated
facts and circumstances and take appropriate action as necessary; and

              (3) Developing procedures to ensure the protection of the personal
information of Warriors in Transition when their Comprehensive Transition Plans are
being accessed and reviewed.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, concurred with the recommendations. He stated that the WTB is
reviewing their existing standard operating procedures to determine if the process needs more
refinement for greater CTP effectiveness. He added that however, the various aspects of the
CTP – such as the Weekly Self-Assessments to the Quarterly Goal-Setting Scrimmage – are only
valuable if Warriors put forth effort and take ownership. If Warriors do not annotate accurate


                                              41

assessments in the 17 categories of his/her healing, transition, and overall well-being, then the
reciprocating staff assessment will be of little benefit. He concluded that therefore, the clinical
and military leadership will continue encouraging the Warriors to take ownership of their
individual plans.

The Commanding General further stated that if there are unauthorized disclosures of personal
information, the BAMC Health Information Portability and Accountability Act (HIPAA) Officer
would lead an investigation. He noted that the automated CTP was designed to give access only
to those Warriors that belong to a staff member, and that squad leaders are limited to their 10
Warriors, platoon sergeants to their 40 Warriors, and case managers to their 20 Warriors. Social
workers, Commanders, Army Wounded Warrior advocates, and First Sergeant are also only able
to see those Warriors that have been assigned to them. He added that anyone who has access to
the automated CTP will be HIPPA certified.

The Commanding General further noted that an improvement to the automated CTP includes
multiple viewings are now in list format, so to see all of one Warrior’s CTP data, the user has to
open up that Warrior’s individual CTP page. Other protective measures include staff using
privacy screens and waiting to show Warriors their computer monitors only after opening up that
Warrior’s specific page. Lastly, the Commanding General noted that if a staff member needs to
step away from their computer, he/she should remove and carry their Common Access Card with
them. The Commanding General stated that the review and modification to the standard
operating procedures (if applicable) will be completed no later than June 30, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendations. No further action is required.

       b. Establish an additional method beyond utilization of current staffing ratios for
determining case loads of squad leaders by using patient medical care complexity so they
are able to more effectively manage the medical cases and provide for the full range of
needs of all Warriors in Transition. Once this additional method is established, determine
the impact this change will have on current staffing levels and whether additional squad
leader positions are required, and if so, determine whether increased staffing levels can be
resourced.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, concurred with the recommendation, stating that although the large
Warrior population and current WTB manning equate to a squad leader to Warrior ratio of 1:10,
WTB companies deliberately avoid grouping Warriors with behavioral health and/or medical
care complexities into one squad to prevent a squad leader from becoming overburdened with
only a few members of his/her squad. The Commanding General further commented that the
chain of command carefully considers what the squad leader has already been through (such as a
Warrior’s death) for Warrior placement in squads to prevent staff burnout. The Commanding
General concluded that the implementation of this recommendation is complete.



                                                 42

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.

        c. Develop and publish Commander’s good order and discipline guidance and
intent to ensure that Warriors in Transition are placed in the most appropriate
environment to facilitate their healing and transition, and that Warriors in Transition and
cadre understand the standards by which good order and discipline will be implemented.
The Commander should use as a guide for the development of the good order and
discipline guidance and intent:

               (1) Warrior Transition Command (Provisional) Policy Memorandum
09-001; and

              (2) Additional tools deemed appropriate by the Commander (which may
include but are not limited to: all-hands meetings, town hall meetings, senior leadership
counsels, suggestion box input, and command climate surveys).

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, concurred with the recommendations. He stated that all Warriors
are required to read Warrior Transition Command Policy Memorandum 09-001 during in-
processing. He added that there are other actions the WTB has implemented to maintain good
order and discipline, to include: the WTB holding a Town Hall meeting on the second
Wednesday of each month; all company commanders conducting small group sensing sessions
on a monthly basis; and distributing a customer satisfaction survey to all Warriors on a quarterly
basis to anonymously address concerns. Therefore, the Commanding General concluded that the
implementation of this recommendation is complete.

Our Response
The Commanding General’s comments are partially responsive. The Commanding General
stated that there are actions implemented within the WTB to maintain good order and discipline,
to include monthly Town Hall meetings, monthly small group sensing sessions, and quarterly
customer satisfaction surveys. However, he did not agree to use these tools to develop and
publish the Commander’s guidance and intent to ensure that Warriors and cadre understand the
standards by which good order and discipline will be implemented within the BAMC WTB. We
ask that the Commanding General reconsider his response to the final report for these
recommendations with regards to developing and publishing a guidance and intent for good
order and discipline within the WTB.

       d. Develop a mandatory, comprehensive program to provide additional training for
non-commissioned officer cadre (squad leaders) that is specific to their needs and provides,
at a minimum:




                                               43

              (1) The skills and knowledge required for in-processing Warriors in
Transition into the Brooke Army Medical Center Warrior Transition Battalion;

               (2) The medical education required to understand behavioral health issues,
specifically, Traumatic Brain Injury and Post Traumatic Stress Disorder, and the signs
and symptoms of those behavioral health issues;

              (3) The medical education required to understand and recognize common
medications, potential interactions, and symptoms;

             (4) The communication skills for effectively communicating with Warriors in
Transition and their families;

              (5) The roles and responsibilities of nurse case managers, primary care
managers, social workers, behavioral health specialists, and other specialists and services
available to Warriors in Transition; and

             (6) The necessary information technology training for the Brooke Army
Medical Center Warrior Transition Battalion specific requirements, such as administering
the Comprehensive Transition Plan online.

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, concurred with the recommendations, stating that the new WTB
staff undergoes extensive training to indoctrinate them into the WTB’s unique environment. The
Warrior Transition Command has a two-week course for all new staff members that covers
topics such as roles and responsibilities of various key players, risk effective communication,
TBI, PTSD, medical terminology, medications, and the CTP. He added that additional training
includes both a BAMC and WTB Cadre orientation, and peer-to-peer support for incoming team
members that helps to assist in tasks such as in- and out-processing. Since there are extensive
training programs for new staff and additional training is provided throughout the year, the
Commanding General stated that the implementation of this recommendation is complete.

Our Response
The Commanding General’s comments are partially responsive. The Commanding General’s
response specifically addresses training that is required of all new staff to the WTB. However, it
does not address the areas of additional training that are provided to WTB cadre and staff on a
continual basis to assist with their proficiency and on-going training needs. We ask that the
Commanding General reconsider his response to the final report for these recommendations with
regards to the development of additional training for WTB cadre and staff that is specific to and
meets their additional training needs after orientation.

        e. Develop a comprehensive transportation plan that includes all logistical
requirements for Warriors in Transition and obtain additional transportation assets prior
to the completion of the new Fort Sam Houston Warrior in Transition complex.



                                                44

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, concurred with the recommendation. He stated that WTB
transportation staff is currently coordinating with 502nd Air Base Wing entities to increase its
transportation capability. He added that the request package entails hiring eight full-time and six
part-time drivers, obtaining an American Disabilities Act-compliant van, and either 5x15
passenger vans or 5x7 passenger mini-vans. Additionally, the Commanding General stated that
the WTB is developing a course of action to leave the mobility challenged and special case
Warriors on the BAMC hospital footprint in the old barracks and new company operations
facility. He concluded that the implementation for these courses of action will be completed no
later than June 30, 2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.

C2. We recommend that the Commander, Warrior Transition Battalion, in coordination
with the Commanding General, Brooke Army Medical Center:

       a. Develop an alternative approach for handling acute care issues for Warriors in
Transition who are unable to gain timely access to their primary care manager. The
alternative approach should be structured so that Warriors in Transition will likely be able
to maintain a consistent relationship with a healthcare provider; and

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, concurred with the recommendation, stating that the Warrior in
Transition Clinic added a new physician and physician assistant and is awaiting three additional
physician assistants to arrive between February and July 2011. He added that the clinic also
implemented a sick-call to improve access to acute care in December 2010. The Commanding
General stated that the additional personnel gains should be completed no later than July 31,
2011.

Our Response
The Commanding General’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.

         b. Review alternative unit organizational structures utilized at other Warrior
Transition Units (such as the Fort Hood Warrior Transition Unit and its use of separate
facilities for combat-wounded Soldiers; and the Fort Polk Warrior Transition Unit and its
use of assigning Warriors based on rank to different units) and determine whether changes
should be made to the organization of units within the Brooke Army Medical Center
Warrior Transition Battalion to improve the operational environment for Warriors in
Transition.




                                                45

Brooke Army Medical Center Comments
The Commanding General, Brooke Army Medical Center, responding for the Commander,
Warrior Transition Battalion, did not concur with the recommendation. He stated that BAMC
has considered the outlined alternative as a best practice; however, based on the acuity of their
patients, the established assignments provide the best support to our patients while being
respectful of rank. As a result, the Commanding General stated that they would not be
implementing our recommendation.

Our Response
Although the Commanding General did not concur with this recommendation, he stated that he
considered the outlined alternatives in our recommendation as best practices, but chose to remain
with the current process used to organize Warriors within units because it best supports his
patients while being respectful of rank. Therefore, we accept the Commanding General’s
comments as responsive and as meeting the intent of the recommendation. No further action is
required.




                                                46

    Part III – Warriors Speak:

Comments from Warriors in Transition





                     47

This Page Intentionally Left Blank




               48

Observation D. Warriors Speak
We believe that it is important to give a “voice” to Warriors assigned to the WTB and that
including comments made by Warriors themselves could best illustrate their various experiences
in the unique WTU mission and environment.

We interviewed 131 Active Component, Army National Guard, and Army Reserve Warriors,
both individually and in groups at the BAMC WTB. Those Warriors provided overall positive
feedback about the BAMC staff, WTB cadre, and the services provided in support of their care
and transition. There was overwhelming agreement from the interviewed Warriors that:
     •	 Equitable access to medical care was provided to Active Component, Army National
        Guard, and Army Reserve Warriors for the condition(s) that required their assignment or
        attachment to the BAMC WTB
     •	 Sensitivity to Warriors’ wounds, illnesses, and injuries was exhibited by BAMC staff and
        WTB cadre and, in particular, to those who were diagnosed with TBI and/or PTSD
     •	 Medication safety was infused into the BAMC WTB by BAMC staff and WTB cadre
“A lot of good people at the BAMC WTB were trying to do the right thing,” was the consensus
of Warriors we interviewed.

Nevertheless, we noted nine common themes from Warrior interviews that we believe require the
attention of the BAMC WTB staff. Specifically, Warriors reported that:
     •	 The CTP was considered a “check the block” requirement that was not beneficial for all,
        and there was a lack of protection of personal information when reviewing CTPs
     •	 Organizational structure of units within the WTB was perceived to have an impact on
        Warrior healing and transition
     •	 Squad leaders and platoon sergeants should have requisite deployment experience
     •	 There was a perception that incentives and personal benefits existed, which motivated
        some Warriors to remain in the WTB rather than working to transition out
     •	 There were concerns by some (mostly Army National Guard and Army Reserve
        Warriors) that they may not have received all of the elective 33 medical care they felt to be
        necessary
     •	 Access to specialty care was not always timely
     •	 A better process should be implemented to verify appointments made for Warriors
     •	 Non-medical attendant 34 criteria were unclear, processing was inconsistent, and 

        reimbursements were delayed

     •	 There were environmental problems within the BAMC WTB that caused concerns for
        some Warriors




33
   An elective procedure is any procedure that addresses an issue that is not one of the primary conditions which
required assignment to the WTB or any procedure after a medical readiness disposition point has been determined.
34
   When the need arises for non-medical care and assistance during a Warrior’s treatment at a medical treatment
facility, medical authorities will authorize a non-medical attendant to assist the Soldier.



                                                        49

Warrior Good News
Warriors that were interviewed during our visit provided significantly positive feedback in three
specific areas: equitable access to medical care, sensitivity to Warriors’ injuries, and medication
safety, all of which are discussed below.

Equitable Access to Medical Care
An overwhelming majority of the Active Component, Army National Guard, and Army Reserve
Warriors that we interviewed stated that they received equitable access to medical care for the
condition(s) that required their assignment or attachment to the BAMC WTB.

One Warrior who had been at the BAMC WTB for approximately four months stated that he
hadn’t seen any delineation between rank, component (Active Component, Army National
Guard, and Army Reserve), or combat versus non-combat wounded Warriors and that “everyone
is treated the same – there are no disparities in treatment.” The same opinion was expressed
during a group interview comprised of junior enlisted Army National Guard Warriors where
there was unanimous consent that there was equal access to care and treatment.

One Warrior commented during another group interview that Warriors were “treated based on
your injury and that is the way it should be.” Another Warrior stated that as a non-combat
wounded Warrior, he had not felt discriminated against by any of the staff or cadre or by the
other Warriors, especially those who were combat wounded.

Sensitivity to Warrior’s Injuries
Warriors that we interviewed felt that BAMC clinical staff and the WTB cadre were sensitive to
the Warriors’ wounds, illnesses, and injuries and, in particular, to those who were diagnosed with
TBI and/or PTSD.

For example, one Warrior stated that his meetings with his social worker were so helpful that
they eventually enabled him to recognize that he had PTSD-related symptoms, for which he
began receiving treatment. Another Warrior commented that he saw his social worker weekly
for PTSD issues, which had supported his getting “to a great point in his life.”

Another Warrior commented that as a TBI patient, his TBI case manager helped him
tremendously and had been able to arrange an appointment quickly if needed. Further, one
Warrior stated that he felt he could go to his nurse case manager for any issue and subsequently
lauded both the TBI Clinic and PTSD services for being very helpful on behalf of his recovery.

Medication Safety
Warriors told us that medication safety was infused in the culture within the BAMC WTB by the
BAMC staff and the WTB cadre.

One Warrior stated that he felt that both the BAMC management and staff and the WTB cadre
were doing all they could do to reduce the chances of Warriors having adverse effects due to
pain medications. Another Warrior told a personal story of how he was prescribed a medication
at another WTB, which made him forgetful and addicted. After transferring to the BAMC WTB,


                                                50

he was weaned from this medication, and although he suffered while going through withdrawal,
he felt he was better off not being on that particular drug.

A different Warrior told a story about knowing of a Warrior who had died of an accidental
overdose while recovering from surgery. He asked to have his own medications reduced during
his own recovery period and his doctors respected his wishes. Another Warrior mentioned that
his nurse case manager helped to manage his prescriptions and as a result, he had no problems
with pain management. He further stated that a list of every prescription he took was attached to
the back of his appointment sheet and the list described the dosage, times of day, and interactions
for each medication.

Warriors’ Concerns
There were nine common themes of concerns we noted from our Warrior interviews. We believe
that these concerns require the attention of BAMC WTB management and staff. Warriors’
comments about those concerns are expressed in the following paragraphs.

Comprehensive Transition Plans
Warriors largely agreed that the CTP was a “check the block” requirement that was not
beneficial for all. In addition, Warriors were concerned about a lack of protection of personal
information when reviewing CTPs. This was previously discussed in Observation C.

The following are additional comments provided by Warriors about the CTP:
   •	 A Warrior explained that in his opinion, the CTP was applied across the board, and he
      felt that it was more of a requirement than a useful tool for recovery.
   •	 During a group interview, a large majority of senior officers and non-commissioned
      officers believed that the CTP was not helpful for them, but they could see how it could
      be beneficial for junior enlisted Warriors. Additionally, those Warriors who were
      returning to duty believed that it wasn’t as beneficial for them as it would be for those
      Warriors who were transitioning out of the Army and back to civilian life.
   •	 A senior non-commissioned officer stated that he was a self-led individual and did not
      need to be treated like a child. Regarding the CTP, he stated that “self-led guys don’t
      need it.”
   •	 During another group interview, Warriors commented that the CTP was too open of a
      source and could be viewed by people who shouldn’t have access to the information.

Organization of Units
Warriors provided multiple comments on how they perceived that unit organization within the
WTB had an impact on their healing and transition. Their comments mirrored the thoughts of
squad leaders. This was previously discussed in Observation C.

During interviews, Warriors mentioned that they preferred to be assigned with those who had
similar injuries, wanted combat wounded with other combat wounded, preferred that recovering
officers and non-theater injured have their own companies, and overwhelmingly agreed that AIT
students should never be assigned to the WTB.



                                                51

Specific comments from Warriors concerning unit organization included, but were not limited to
the following:
   •	 “I am vehemently opposed to AIT students being permitted to use the facilities at the
      Center for the Intrepid, because they are a distraction to the healthcare providers. Also,
      AIT students are required to travel with a ’buddy,’ and their travel buddies often smoke,
      sleep, and hang out in the lounge waiting for their buddy to complete their respective
      appointments, which is a distraction and needs to be corrected.”
   •	 “AIT students and non-combat veterans are mixed with the injured combat veterans,
      which isn’t good. No AIT students should be permitted on the WTB premises.”
   •	 “Medical hold-type injuries should not have the same benefits as combat veterans.
      Combat veterans need to be with combat veterans and others that have ‘chewed sand’
      together, and malingerers need to be identified and removed from the WTB.”
   •	 “While there is no perceived difference in the components in terms of care, Warriors
      ‘group up’ based on their injuries (e.g., burn patients hang out with other burn patients).”
   •	 “Warriors with like wounds tend to group together, and lesser-wounded Warriors often
      do not talk to more seriously wounded soldiers. Your injury becomes your new MOS
      [Military Occupational Specialty].”
   •	 “Warriors that were deployed to Southwest Asia should be separated from those who
      were not deployed, should be grouped by injury, and officers should be separated from
      enlisted Warriors.”

Cadre Experience
Warriors expressed the importance of squad leaders and platoon sergeants having been deployed
so that they could relate better to what the Warriors were experiencing.

Warriors stated during a group interview that it could not be stressed enough that squad leaders
must have deployment experience. They believed that leaders without the combat patch were
not respected due to the impression or perception that the wars have been going on since 2001
and they have not “done their part.” One Warrior stated, “I don’t care if you were in Qatar or
Kuwait, at least you did something and know what we are going through.”

A different Warrior agreed that squad leaders who have not deployed should not be WTB squad
leaders because they cannot empathize with the combat veterans. He specifically stated that
“senior non-commissioned officers who have not deployed should not be in charge of Warriors
in Transition.” Further, another Warrior commented that those “who have not chewed sand with
us” should not be squad leaders. He referred to squad leaders without previous deployment
experience as “avoiding deployment” and was adamant that military leadership in the WTB must
have had previous deployment experience in order to be effective.

Incentives to Transition
Warriors indicated that a perception exists that there were incentives and personal benefits not to
transition out of the WTB. Warriors’ comments included, but were not limited to the following:
   •	 “Some soldiers take advantage of peoples’ desire to help by manipulating the system.”
   •	 “Several Warriors are ‘malingerers’ and should not be permitted in the WTB.”



                                                52

   •		 “The length of time some of the Warriors have been here is suspicious. Some Warriors
       hunt or golf rather than work towards their transition goals.”
   •		 “Many people in the battalion have a sense of entitlement and abuse some of the 

       programs available.”



Complete Care and Treatment
Some Army National Guard and Army Reserve Warriors were concerned that they may not have
received all of the elective medical care they felt to be necessary.

During a group interview with Reservists, several Warriors expressed opinions that the Army
was trying to “rush” them out of active service so that the Army would not be required to provide
care. One Warrior stated that he had to argue for additional care not directly related to his injury
because “it’s not what you were brought here for.”

Another Warrior agreed with that statement, stating that it was like “pulling teeth” to get
evaluated for a condition other than the one that landed him in the WTB. He stated that you are
told to “wait until you get out and go to the VA [Veterans Affairs].” It was understood that the
cadre were trying to prevent the Guard and Reserve Warriors from “milking the system.”
However, these Warriors felt that they were allowing one bad apple to spoil the whole bunch,
and the ones who were genuinely seeking elective medical care often weren’t getting what they
needed.

Access to Specialty Care
Access to specialty care (such as behavioral health, pain management, orthopedics, etc.) was not
always timely. This was previously discussed in Observation B.

Warriors agreed during a group interview that the behavioral health clinic needed more mental
health providers because there simply were not enough available. One Warrior stated that some
of his Warrior support staff appointment books were often full, such as his social worker and
physical therapist at the hospital and the Center for the Intrepid. Further, another Warrior stated
that it took him 6 weeks to get his first appointment to see the plastic surgeon.

Appointment Management
Warriors were concerned that appointments were missed when they were not verified. This was
previously discussed in Observation B.

One Warrior stated that “no-show appointments” were sometimes linked to inaccurate
information on appointment sheets, as well as incomplete information, since appointments with
the DVA were not included on the appointment sheet. Another Warrior felt that appointment
sheets were too vague and needed to list room numbers and phone numbers identifying where his
appointments were located.

A different Warrior stated that overall he felt good about his relationship with his nurse case
manager, but said that sometime there was a lack of communication in verifying his
appointments with him and this resulted in those appointments being missed. He felt that many
Warriors missed appointments due to “one way communication” from their case managers.


                                                53


Non-Medical Attendants
It was apparent during multiple interviews that criteria for obtaining a non-medical attendant
were unclear, processing was inconsistent, and reimbursements were delayed.

Specifically, during a group interview with officers and non-commissioned officers, they
explained that there were vague criteria regarding the use of non-medical attendants, and that it
was difficult to understand the required qualifications for those authorized to have a non-medical
attendant.

Warriors reported during a separate group interview a general lack of understanding concerning
how to obtain authorization for a non-medical attendant and stated that the specific requirements
for having one were unknown to them. Another Warrior stated that “there is lack of clarity on
exactly what criteria is used to qualify a family member for the non-medical attendant position,
and there is little equity in getting support to have one.”

Other Warriors reported that their non-medical attendants had issues with receiving their pay.
One Warrior stated that his wife was not eligible for the non-medical attendant allowance, but he
was not sure why. Another Warrior reported that his only problem while at the WTB was how
long it took (reportedly several months) to resolve his non-medical attendant’s financial voucher.
Further, during a group interview, some Warriors reported having had issues regarding a lapse in
pay for their non-medical attendants.

Warriors’ Environment
Several Warriors mentioned that there were particular environmental factors within buildings on
the Fort Sam Houston installation that posed challenges to their healing and transition.

For example, one Warrior mentioned that he had a concern with noise stimulus in the behavioral
health trailers. When he was attending his appointments with his behavioral health specialist, he
could hear the opening and closing of an adjacent door that sounded like an ammunition round
being chambered, which was distracting for a Warrior receiving counseling for PTSD.

Another Warrior reported that he and a few other Warriors were concerned about force
protection at Fort Sam Houston and the close proximity of the gate to the Warrior complex. He
said that this caused him and other Warriors anxiety because of their post-traumatic stress
condition.

Further, two Warriors expressed concerns that the hospital cafeteria, where many Warriors ate
meals, was difficult to maneuver with prosthetics and wheelchairs because it was extremely
crowded. In addition, one acknowledged that the crowded environment could cause problems
for Warriors suffering from PTSD. One of these Warriors suggested special hours for Warriors
that fall into these medical categories, such as extending cafeteria hours 15 minutes before and
15 minutes after normal dining hours, to support Warriors with these diagnoses.




                                                54


Conclusion
Warriors agreed that the individuals charged with their care and recovery were genuinely
concerned about their well being and were trying to provide the right care and assistance during
their recovery and transition periods. However, they also expressed concerns about certain
aspects of their recovery and transition that we believe warranted specific mention. Because
several of these themes were addressed in previous Observations, we are not making formal
recommendations about the Warriors’ concerns expressed in this Observation. However, we do
recommend that the BAMC and WTB management and staff review the concerns voiced by
Warriors to more effectively support their healing and transition.




                                               55


This Page Intentionally Left Blank




               56


Appendix A. Scope, Methodology, and
Acronyms
We announced and began this assessment on April 16, 2010. The assessment was planned and
performed to obtain sufficient and appropriate evidence to provide a reasonable basis for our
observations, conclusions, and recommendations, based on our objectives. The team used
professional judgment to develop reportable themes drawn from multiple sources, to include
interviews with individuals and groups of individuals, observations at visited sites, and reviews
of documents.

We visited Brooke Army Medical Center (BAMC) and its subordinate organizations, the Warrior
Transition Battalion (WTB) and the Warrior Transition Services (WTS), located at Ft. Sam
Houston, Texas, from June 14-25, 2010. The Commander, WTB, reported directly to the
Commander, BAMC. The Commander, BAMC, was also the Commander, U.S. Army Medical
Department, Southern Regional Medical Command. In addition, the Director, WTS, reported
directly to the Commander, BAMC, but provided direct support to the WTB.

During our 2-week site visit, we observed battalion operations and formations; viewed living
quarters, campus facilities, and selected operations at the medical center; and examined pertinent
documentation. We also performed meetings and interviews – ranging from general officers,
unit commanders, staff officers, and cadre, to civilian staff and contractors – as shown below:

   •		 BAMC Commanding General                         •		   Primary care managers
   •		 BAMC Dep. Cdr. for Administration               •		   Nurse case managers
   •		 BAMC Dep. Cdr. for Allied Health Services       •		   Chaplains
   •		 BAMC Dep. Cdr. for Clinical Services            •		   Traumatic Brain Injury Clinic
   •		 BAMC Dep. Cdr. for Nursing Services                   Director
   •		 BAMC Ombudsman                                  •		   Behavioral Health Clinical
   •		 BAMC Pharmacists                                      Psychologists
   •		 WTB Commander and Sergeant Major                •		   Behavioral Health Licensed
   •		 WTB Personnel Officer                                 Clinical Social Workers
   •		 WTB Surgeon                                     •		   Occupational Therapists
   •		 WTB Company Commanders                          •		   Soldier Family Assistance Center
   •		 WTB First Sergeants                                   Director
   •		 WTB Platoon Sergeants                           •		   Army Wounded Warrior Program
   •		 WTB Squad Leaders                                     Liaison
   •		 WTS Director                                    •		   Navy Liaison
   •		 Marine Corps Detachment Commander and           •		   Air Force Liaison
       Non-Commissioned Officer-in-Charge              •		   Veterans Affairs Liaison
   •		 Marine Corps Detachment Deputy                  •		   Families of Recovering Service
       Officer-in-Charge                                     Members

Further, we performed interviews with WTB recovering Service members, to include
74 individual interviews with Army personnel, 9 individual interviews with active duty Marine



                                                57


Corps personnel, and 9 group interviews with 57 additional Army personnel. The nine group
interviews were comprised of the following participants:
   • 11 Army Officer/Sr. Enlisted = 4 Active Component, 5 National Guardsmen, 2 Reservists
   • 6 Army Officer/Sr. Enlisted = 6 Active Component
   • 4 Army Officer/Sr. Enlisted = 4 Reservists
   • 7 Army E5 – E7 = 6 Active Component, 1 Reservist
   • 6 Army E5 – E7 = 5 National Guardsmen, 1 Reservist
   • 4 Army E5 – E7 = 3 Reservists, 1 National Guardsmen
   • 5 Army E1 – E4 = 4 Active Component, 1 Reservist
   • 8 Army E1 – E4 = 8 National Guardsmen
   • 6 Army E1 – E4 = 6 National Guardsmen
We prepared standardized sets of questions that were used during individual and group sessions,
which were tailored to the type or group of personnel being interviewed. Those interviews
primarily included but were not limited to recovering Service members and members of the Triad
of Care - primary care managers, nurse case managers, and squad leaders. The standardized
interview questions for these groups included topics such as access to care, use of
Comprehensive Transition Plans, responsibilities for Triad of Care members, working
relationships amongst the Triad of Care members, and discipline issues within the WTB, among
others.

Use of Technical Assistance and Computer-Processed Data
We did not use computer-processed data to perform this assessment. However, analysts from the
DOD Office of the Inspector General, Deputy Inspector General for Audit, Quantitative Methods
and Analysis Division, used a simple random sample approach to determine the number of Army
Warriors in Transition (Warriors) we should interview at the BAMC WTB to obtain a
representative sample. The random sample was used to avoid any biases that might have been
introduced by selecting interviewees non-statistically.

The analysts used a list of Warriors identified by name, rank, and WTB company assignment
(Alpha Company, Bravo Company, Charlie Company, and Headquarters Company), which we
obtained from the BAMC WTB. As of May 26, 2010, there were 538 Active Component, Army
National Guard, and Army Reserve Warriors at the BAMC WTB, comprising the total
population from which we drew our random sample.

The analysts used a program called the Statistical Analysis System and its internal random
number generator to assign random values to each individual, then sorted all 538 members into a
random number sequence. Using this method, the analysts calculated a sample size of
60 Warriors for individual interviews. The sample size of 60 is based on a 90 percent confidence
level, a planned margin of error of 10 percent, and the statistically conservative assumption of a
50 percent error rate.

The team used this approach to first determine whether any reportable themes (noteworthy
practices, good news, issues, concerns, and challenges) were identified by those most impacted
by their assignment to the WTB, the Warriors. We met with or interviewed others – ranging
from general officers, unit commanders, staff officers, and cadre, to civilian staff and contractors


                                                 58


– to corroborate the identified themes or to identify other reportable themes not readily known to
the Warriors.

On June 9, 2010, we provided the list of Warriors to be interviewed from our randomly
generated sample to the BAMC WTB. With a goal of 60 interviews, we advised the BAMC
WTB that those 60 interview slots could be filled with Warriors that were assigned values
1 through 99 in the random order sequence until all interview slots were full. We also advised
the BAMC WTB that a justification must be provided for any individuals in that sequence that
were unable to attend an interview for mitigating reasons such as convalescent leave, annual
leave, medical appointments, physical impairments, logistical constraints, etc. Below are the
results from our Warrior’s individual interviews at the BAMC WTB.

Of the 99 Warriors statistically selected with random order numbers 1 through 99:
    • 56 were interviewed
    • 24 were excused
    • 19 were not interviewed or excused
The BAMC WTB produced only 56 of the required 60 Warriors shown in the randomly selected
sample. Further, the command did not justify the absence of all individuals that were not able to
attend their scheduled interviews. Therefore, we interviewed an additional 18 command-selected
individuals that were not part of the original 99 randomly selected names. As a result, we
interviewed a total of 74 individual Army Warriors at the BAMC WTB. However, we believe
that the information obtained from the 56 individuals selected as part of our random sample
provided a reasonable indication of the views of the total population.

Acronym List
The following acronyms were used in this report.

AIT                   Advanced Individual Training
BAMC                  Brooke Army Medical Center
CONUS                 Continental United States
CTP                   Comprehensive Transition Plan
DVA                   Department of Veterans Affairs
HIP                   High-Interest Patient
P-MART                Prescription Medication Analysis and Reporting Tool
PTSD                  Post Traumatic Stress Disorder
TBI                   Traumatic Brain Injury
WINTAP                Warrior in Transition Advancement Program
WTB                   Warrior Transition Battalion
WTS                   Warrior Transition Services
WTU                   Warrior Transition Unit




                                                59


Appendix B. Summary of Prior Coverage
During the last 5 years, there has been a multitude of prior coverage on DOD and Department of
Veterans Affairs (DVA) healthcare services and management, disability programs, and benefits.
The Government Accountability Office (GAO), the Department of Defense Inspector General
(DOD IG), and the Naval Audit Service have issued 12 reports specific to DOD Warrior Care
and Transition Programs. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/PUBS/index.html. Naval Audit Service reports are not available over the
Internet.

GAO
GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic Stress
Disorder Research and Incorporates Research Outcomes into Guidelines and Policy for Post-
Traumatic Stress Disorder Services,” January 24, 2011

GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and Monitoring
Units that Provide Outpatient Case Management, but Additional Steps Needed,” April 20, 2009

GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
Compliance with Personality Disorder Separation Requirements,” October 31, 2008

GAO Report No. GAO-08-635, “Federal Disability Programs: More Strategic Coordination
Could Help Overcome Challenges to Needed Transformation,” May 20, 2008

GAO Report No. GAO-08-615, “DOD Health Care: Mental Health and Traumatic Brain Injury
Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record Review
Policies Needed,” May 30, 2008

GAO Report No. GAO-08-514T, “DOD and VA: Preliminary Observations on Efforts to
Improve Care Management and Disability Evaluations for Servicemembers,” February 27, 2008

GAO Report No. GAO-07-1256T, “DOD and VA: Preliminary Observations on Efforts to
Improve Health Care and Disability Evaluations for Returning Servicemembers,” September 26,
2007

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DOD Needs to Identify the
Factors Its Providers Use to Make Mental Health Evaluation Referrals for Servicemembers,”
May 11, 2006

DOD IG
DOD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DOD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force on
Mental Health,” April 15, 2008


                                              60

Navy
Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance Management
Program - Preseparation Counseling Requirement,” September 15, 2009

Naval Audit Service Report No. N2009-0009, “Department of the Navy Fisher Houses,”
November 4, 2008




                                           61


Appendix C. Reporting Other Issues
We are performing the Assessment of DOD Wounded Warrior Matters at multiple Army
locations and plan to report on each location separately. This report focused on whether the
programs for the care, management, and transition of Warriors in Transition assigned to the
Brooke Army Medical Center (BAMC) Warrior Transition Battalion (WTB), located at Fort Sam
Houston, Texas, were managed effectively and efficiently.

We also plan to report on issues, concerns, and challenges that were common amongst most, if
not all, Army Warrior Transition Units (WTUs) at the conclusion of our Army site visits. That
report or multiple reports will be provided to appropriate organizations to provide information on
or identify corrective actions addressing those issues, concerns, and challenges. Those
organizations may include but are not limited to the Office of the Deputy Under Secretary of
Defense for Wounded Warrior Care and Transition Policy; the Assistant Secretary of the Army
for Manpower and Reserve Affairs; the U.S. Army Medical Department, Office of the Surgeon
General; and the U.S. Army Medical Command, Warrior Transition Command.

Table 2 below captures issues, concerns, and challenges we identified at the BAMC WTB (with
corresponding page references noted) that may likely be included in future assessments and/or
additional report(s). We may issue an additional report(s) before the conclusion of our Army site
visits if we consider these other matters of interest urgent.

               Table 2. Potential Items for Future Assessments and/or Reports
                                                                                    Report
                       Issue, Concerns, and Challenges
                                                                                  Reference(s)
 Definition of a Successful Transition End-State for Warriors                     Page 20
 Eligibility of Warriors for Warrior Transition Units                             Pages 21, 36
 Staffing Ratios and Warrior Case Loads for Staff and Cadre                       Pages 22, 37
 Additional Post-Traumatic Stress Disorder and Traumatic Brain Injury Training    Pages 23, 39
 Warrior Access to Specialty Care                                                 Pages 23, 53
 Medical Records Management for Warriors                                          Page 25
 Occupational Therapy Process for Warriors                                        Page 25
 Comprehensive Transition Plans and Protection of Personal Information            Pages 35, 51
 Good Order and Discipline within Warrior Transition Units                        Page 37
 Organization of Warrior Transition Units                                         Pages 38, 51
 Experience, Selection, and Training of Squad Leaders and other Cadre             Pages 39, 52
 Non-Medical Attendant Criteria                                                   Page 54




                                                 62


Appendix D. Army Guidance for Warrior
Transition Units
Army guidance for the care and management of Warriors is contained in the “Warrior Transition
Unit Consolidated Guidance (Administrative),” March 20, 2009 (hereafter, “Consolidated
Guidance”). It was revised in March 2009 to update policies and guidance for the care and
management of Warriors. According to the Consolidated Guidance, a Warrior is a Soldier who
is assigned or attached to a Warrior Transition Unit (WTU) whose primary mission is to heal.

The Consolidated Guidance addresses specific policy guidance regarding assignment or
attachment to a WTU, the process for the issuance of orders to Soldiers, and other administrative
procedures for Soldiers being considered for assignment or attachment to a WTU. The
publication also summarizes existing personnel policies for family escort, non-medical attendant,
housing prioritization, leave, and other administrative procedures for Soldiers assigned or
attached to a WTU. Further, it provides information on the Physical Disability Evaluation
System for Soldiers processing through this system.

Pertinent Federal statutes, regulations, and other standards governing these programs and
services are cited throughout the Consolidated Guidance and are collated in a reference section.
The document also states that, previously, there was no overarching Army collective or
regulatory administrative guidance for WTUs.

The authority for WTUs is provided by:
   •		 Department of the Army EXORD [Execute Order] 118-07 Healing Warriors, 

       June 21, 2007

   •		 Department of the Army FRAGO [Fragmentary Order] 1 to EXORD 118-07 Healing
       Warriors, August 16, 2007.
   •		 Department of the Army FRAGO 2 to EXORD 118-07 Healing Warriors, 

       December 14, 2007.


   •		 Department of the Army FRAGO 3 to EXORD 118-07 Healing Warriors, July 1, 2008.
The overview of the WTU program is stated as:
   •		 Vision – to create an institutionalized, Soldier-centered WTU program that ensures
       standardization, quality outcomes, and consistency with seamless transitions of the
       Soldier’s medical and duty status from points of entry to disposition.
   •		 Goal – to expeditiously and effectively evaluate, treat, return to duty, and/or


       administratively process out of the Army, and refer to the appropriate follow-on 

       healthcare system, Soldiers with medical conditions.


   •		 Intent – to provide Soldiers with optimal medical benefit, expeditious and comprehensive
       personnel and administrative processing, while receiving medical care. The Army will
       take care of its Soldiers through high quality, expert medical care. For those who will
       leave the Army, the Army will administratively process them with speed and compassion.
       The Army will assist with transitioning Soldiers’ medical needs to the Department of
       Veterans Affairs for follow-on care.



                                               63

The objectives of the WTU program are stated as:
     •	 “Address and ensure resolution on all aspects of personnel administration and processing
         for the WT [a Warrior] from points of entry through disposition, to include processing
         through the Physical Disability Evaluation System (PDES). Final disposition occurs
         when the WT is determined/found medically cleared for duty or the PDES process is
         complete, including appeals.”
     •	 “Address and ensure resolution on the administrative aspect of medical management for
         the WT, including Tri-Service Medical Care (TRICARE) and/or Veterans Health
         Administration follow on medical care.”
     •	 “Address and ensure resolution on command and control (C2), including logistical
         support, for the WT assigned or attached to garrison units, Medical Treatment Facilities
         (MTF), Warrior Transition Units (WTU), and Community-Based Warrior Transition Unit
         (CBWTU). 35”
     •		 “Address and ensure resolution on the accountability and tracking of the WT in real time
         as he/she progresses through the WT process and if necessary, the PDES process.”
The Mission Essential Task List of the WTU program states that the Army will–
     •		 “Provide Command/Control and Administrative Support (including pay) trained to focus
         on special needs of WT Soldiers.”
     •	 “Provide high quality, expert medical care, and case management support - Primary Care
         Provider, Case Manager, Behavioral Health, Specialty Providers.”
     •	 “Administratively process with speed and compassion those who will leave the Army.”
     •		 “Facilitate transition of separating and REFRAD’ing [Release From Active Duty]
         Soldiers to the VHA [Veterans Health Administration] or TRICARE for follow-on care.”
The WTU concept of operations is stated as:
     •	 “Provide Soldiers high-quality living conditions.”
     •	 “Prevent unnecessary procedural delays.”
     •	 “Establish conditions that facilitate Soldier’s healing process physically, mentally, and
        spiritually.”
     •	 “Provide a Triad of Warrior Support that consist of Platoon Sergeant/Squad Leader, Case
        Manager (CM), and Primary Care Manager (PCM), working together to ensure advocacy
        for WT Soldiers, continuity of care and a seamless transition in the force or return to a
        productive civilian life.”




35
  Community-Based WTUs are primarily for Reserve Component Soldiers. Community-Based WTU is a program
that allows Warriors to live at home and perform duty at a location near home while receiving medical care from the
Tri-Service Medical Care network, the Department of Veterans Affairs, or Military Treatment Facility providers in
or near the Soldier’s community.


                                                        64

Appendix E. Brooke Army Medical Center and Warrior
Transition Battalion Comments




                  Click to add JPEG file




                                 65
Click to add JPEG file




               66
Click to add JPEG file




               67
Click to add JPEG file




               68
Click to add JPEG file




               69
Click to add JPEG file




               70
Click to add JPEG file




               71
Click to add JPEG file




               72
Click to add JPEG file




               73
Click to add JPEG file




               74
Click to add JPEG file




               75
Click to add JPEG file




               76
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations


                                                                                                                                                Department of Defense Inspector General


             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive


                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704






                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
